<html>
<title> - RATING ENTERTAINMENT RATINGS: HOW WELL ARE THEY WORKING FOR PARENTS AND WHAT CAN BE DONE TO IMPROVE THEM?</title>
<body><pre>[Senate Hearing 107-159]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-159
 
RATING ENTERTAINMENT RATINGS: HOW WELL ARE THEY WORKING FOR PARENTS AND 
                   WHAT CAN BE DONE TO IMPROVE THEM?
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 25, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs









                        U.S. GOVERNMENT PRINTING OFFICE
75-480                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Lawrence B. Novey, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Fred Ansell, Minority Chief Counsel
                     Darla D. Cassell, Chief Clerk














                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     4
    Senator Carper...............................................    32
    Senator Durbin...............................................    36
Prepared statement:
    Senator Bunning..............................................    71

                               WITNESSES
                        Wednesday, July 25, 2001

Hon. Sam Brownback, a U.S. Senator from the State of Kansas......     9
Dale Kunkel, Ph.D., Professor of Communications, University of 
  California, Santa Barbara......................................    13
Roger Pilon, Ph.D., J.D., Vice President for Legal Affairs, B. 
  Kenneth Simon Chair in Constitutional Studies, Director, Center 
  for Constitutional Studies, Cato Institute.....................    15
Michael Rich, M.D., M.P.H., Children's Hospital Boston/Harvard 
  Medical School.................................................    18
Laura Smith, Mother..............................................    21
William Baldwin, President, The Creative Coalition...............    39
Doug McMillon, Senior Vice President and General Merchandise 
  Manager, Wal-Mart Stores, Inc..................................    42
Hilary Rosen, President and CEO, Recording Industry Association 
  of America.....................................................    44
Jack Valenti, President and CEO, The Motion Picture Association 
  of America.....................................................    47
Douglas Lowenstein, President, Interactive Digital Software 
  Association....................................................    50
Russell Simmons, Chairman, Phat Farm.............................    68

                     Alphabetical List of Witnesses

Baldwin, William:
    Testimony....................................................    39
    Prepared statement...........................................    97
Brownback, Hon. Sam:
    Testimony....................................................     9
    Prepared statement...........................................    11
Kunkel, Dale, Ph.D.:
    Testimony....................................................    13
    Prepared statement...........................................    72
Lowenstein, Douglas:
    Testimony....................................................    50
    Prepared statement...........................................   123
McMillon, Doug:
    Testimony....................................................    42
    Prepared statement...........................................   102
Pilon, Roger, Ph.D., J.D.
    Testimony....................................................    15
    Prepared statement...........................................    78
Rich, Michael, M.D., M.P.H.:
    Testimony....................................................    18
    Prepared statement...........................................    84
Rosen, Hilary:
    Testimony....................................................    44
    Prepared statement...........................................   106
Simmons, Russell:
    Testimony....................................................    68
    Prepared statement...........................................    45
Smit, Laura:
    Testimony....................................................    21
    Prepared statement...........................................    89
Valenti, Jack:
    Testimony....................................................    47
    Prepared statement with attachments..........................   113

                                Appendix

Prepared statements submitted for the record:
    The Media Coalition..........................................   128
    Directors Guild of America...................................   131
    Professor Joanne Cantor, Ph.D., University of Wisconsin-
      Madison....................................................   136













RATING ENTERTAINMENT RATINGS: HOW WELL ARE THEY WORKING FOR PARENTS AND 
                   WHAT CAN BE DONE TO IMPROVE THEM?

                              ----------                              


                        WEDNESDAY, JULY 25, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Thompson, Carper, Durbin, and 
Bunning.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good morning. Welcome to this hearing. 
Let me say that we are here to revisit an issue that parents 
repeatedly raise with just about everyone who will listen, and 
that is the challenge that is facing them in raising healthy 
children in today's 500-channel, multiplexed, videogamed, disc-
manned universe.
    Before I proceed, I want to apologize for the quality of my 
voice today. I am fighting a summer cold, and I am reminded of 
the old story of the clergyman who, when he rises to give the 
sermon, says to his congregates, ``As you can hear, I have a 
terrible cold, and I had thought of not giving a sermon today, 
but then I decided why should you derive pleasure from my 
misery?'' Jack Valenti, it is in that spirit that I go forward 
with the proceedings.
    A second preliminary announcement, in the last few days we 
have had several requests from people who wanted to testify at 
the hearing, including some members of the House, and it has 
just been very hard at this date to accommodate those requests. 
Others came from folks within the entertainment industry. But I 
have said to them that we will accept their written testimony, 
that I would be glad to meet with them, and, if it seems to be 
constructive and worthy, we will convene another hearing on the 
subject, to give others an opportunity to testify.
    What I described at the outset, which is the concern of 
parents around the country today about the effect of the 
entertainment culture on their children, is a reflection of the 
quantity of time that children spend consuming and using media. 
You get a lot of numbers on this. One of them is an average of 
6\1/2\ hours a day, which is the number reported by the 
Annenberg Public Policy Center. But I think we all know it is 
more than quantity. It is a reflection on the quality of the 
messages about sex and violence that kids are being exposed to 
by the entertainment media--messages which too often reject, 
rather than reflect, the values that parents are trying to 
instill in their children--and the growing sense that the 
totality of these messages is having a harmful influence on the 
attitudes and behaviors of our children, and therefore on the 
safety and even the moral condition of our country.
    There are limits to what we in government can do to respond 
to those concerns, first because of our devotion to the First 
Amendment, and second because governments do not raise 
children, parents do. At the same time, though, there are 
things that we can do--hopefully, with the movie, music, video 
game and television industries--to empower parents and make the 
hard job of raising healthy children a little easier.
    Now, one way to empower is to inform. Over the years, the 
major entertainment media have developed rating and labeling 
systems to offer parents and consumers information about the 
content of their products and help parents exercise more 
informed control over their children's media diets. Over that 
time, these ratings, particularly those of the movie industry, 
have become cultural icons, literately. But as the content and 
marketing practices of the entertainment media have become 
worse, we have been hearing more and more concerns about how 
these rating systems work. There have been specific criticisms 
about their reliability, visibility and understandability, and 
there have been general complaints that the ratings do not 
provide parents with enough information about content--about 
the levels of sex, violence and vulgarity in the product--to 
make the right choice for their children. Last year, for 
example, a Gallup survey found that 74 percent of parents said 
the movie, music, and television ratings were inadequate on 
that count.
    Those concerns culminated in a letter sent to policymakers 
last month by a distinguished coalition of researchers, medical 
groups, including the American Medical Association and the 
American Psychological Association, and a large number of child 
development experts and advocates, which recommended a complete 
overhaul of the media ratings. That letter, which was 
instituted by the National Institute on Media and the Family, 
argued that the different ratings are often applied 
inconsistently, and many parents find the multiplicity of 
rating icons confusing, and as a result that the ratings are 
not adequately serving their purpose, which is to help parents 
and protect kids. To fix this problem, the signers of the 
letter called for replacing the existing formats with a new, 
uniform rating system monitored by an independent oversight 
committee and grounded in sound research.
    I thought this was an important statement with a 
provocative proposal that deserved more public discussion. I 
also believe that one constructive way in which we in 
government can help parents is to provide a platform, to 
facilitate a dialogue and ideally find some common ground. And 
that is the aim of our hearing today, to flesh out the concerns 
raised in the NIMF's letter and explore the merits of their 
recommendations, to hear the response of the industry keepers 
of these rating systems and to see if there is any agreement on 
ways to improve the ratings to better inform parents.
    I have expressed interest in the idea of uniform ratings 
before, as have others in Congress, including Senators McCain 
and Clinton, and in the entertainment industry, notably Disney 
President Robert Iger, and I remain interested in this idea. 
Many parents appear to be interested, as well--a survey by the 
Kaiser Family Foundation, which is being released today, found 
that 40 percent of parents believe that a uniform rating system 
would be more useful than the current approach, and only 17 
percent think it would be less useful. So today we are going to 
hear arguments in favor of switching to a single system, as 
well as the industry's responses to those arguments.
    I hope the entertainment industry witnesses come with an 
equally open mind, particularly on the question of providing 
more and better information. For some time now, for instance, 
many of us have voiced dissatisfaction with the recording 
industry's one-size-fits-all parental advisory program, which 
provides a solitary stickered warning to parents of ``explicit 
content.'' We have urged the major record companies to expand 
and clarify their system and tell parents what kind of explicit 
content is in the lyrics. Those same criticisms and calls for 
change were repeated vociferously at a hearing before the House 
Telecommunications Subcommittee last week, as I understand it, 
and Ms. Hilary Rosen, on behalf of the recording industry, 
ruled out adding any content descriptions to the recording 
industry's labeling system. I hope in our discussion today that 
Ms. Rosen will reconsider that position.
    I also hope that Mr. Valenti will alter the surprising and, 
to me, outrageous suggestion he made in his response to the 
letter from Dr. Walsh and the AMA and the APA, that there is 
serious doubt remaining about whether violence in the media 
poses any risk of harm to our children.
    On the brighter side, if we are looking for an industry 
model, I would point to the video game rating system, which is 
administered by the independent Electronics Software Ratings 
Board. This system, which was a response in the first instance 
to congressional hearings and parent concern, pairs age-based 
icons with detailed content descriptors in a clear, concise and 
informative format. I know that no rating system is perfect, 
certainly not in its application, but I think this is the best 
one around.
    If I may touch briefly on a subject that is not the subject 
of our hearing today, which is our concern about media 
marketing practices, I commend the video game industry for 
adopting, in response to the FTC report, a comprehensive code 
of its own on marketing and a self enforcement mechanism, 
which, if the legislation Senators Clinton, Kohl, and I have 
proposed were adopted, would protect the video game industry 
from any FTC enforcement because they have done what we have 
most wanted the entertainment industry to do, which is to self-
regulate and leave no room, or no need, for government to be 
anywhere near what they are doing.
    Ultimately, any potential reforms in the ratings will be 
meaningless if parents do not use them, and we need to remind 
parents constantly of their responsibilities as we renew our 
call for more and better information in the ratings.
    One final word about the First Amendment, which is one 
thing that I think all of us, on whatever side we are, 
fortunately seem to support. I certainly do. That is why we are 
not talking about any legislation or government regulation 
today. By I again want to warn the industry that the best way 
to invite censorship is to disengage from this discussion and 
tune out the larger concerns of millions of American parents 
about media influence on our kids and on our country. Indeed, 
to me, the most striking finding of the Kaiser survey that I 
have referred to was that 48 percent of parents in this country 
would support government regulations to limit the amount of 
violent and sexual content in early-evening TV shows. That is 
an alarming number, and it is an outcry that begins to express 
just how frustrated and angry America's parents are about the 
state of our culture and its impact on our children.
    I am now happy to yield to my Ranking Member, Senator 
Thompson, a fully-reformed member of the entertainment industry 
and who, in all of his work here, gives not only stellar 
performances, but certainly G-rated performances.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Mr. Chairman, I do come to these hearings 
somewhat prejudiced, as one who thinks they really have not 
made a really good movie since ``Baby's Day Out,'' but I will 
try to put that aside as we proceed. Mr. Chairman, thank you 
for your comments. You have certainly given us a lot to chew on 
this morning, and I think that it is going to make for some 
very interesting hearings and discussions, but there have been 
a lot of hearings lately, or certainly proposed, I think--one 
in the House. We are having one--they are talking about our 
Judiciary Subcommittee on the Senate side having a hearing, the 
Antitrust Subcommittee--having a hearing on this. Since I am 
the Ranking Member and feel an obligation to be here and make 
my own views known, perhaps I can come about it from a slightly 
different perspective and maybe add some things to the 
discussion.
    We are here talking about ratings, but really we are also 
talking about something bigger. I selected the Governmental 
Affairs Committee to be on when I first got here, one of the 
first committees that I selected and, because a lot of people 
did not find it very interesting work, I got some seniority in 
a hurry and ultimately became Chairman of this Committee, but I 
was interested in it because it had to do with government and 
it had to do what the role of government, thinking that if 
government was not doing some things it ought to be doing, that 
was not serving the country, and if government was doing some 
things that it should not be doing, that that was harming the 
country because of the power of the Federal Government. It had 
to do with the role of the government. It had to do with the 
relationship between Federal, State and local government. That 
is what appealed to me about this Committee and the work that 
it did. As I look at some of these subjects, the questions, of 
course, people are interested in the rating system, but the 
real question to me, and the more fundamental question, is what 
should, as a Congress, our relationship to those ratings be?
    What if the ratings we decide are good? On the other hand, 
what if we decide that the ratings are bad? Then what? I must 
say I was somewhat surprised when President Clinton asked for 
the FTC report. Of course, now the Commerce Committee asked for 
another FTC report. Now we are going to get a third FTC report, 
and I kept asking myself, as I think--as I was in the capacity 
I was in with regard to the Governmental Affairs Committee--
what if these reports come back bad? Then what? What is our 
proper role as a government, as a Congress, as a governmental 
entity, if we are displeased with the findings?
    So we find ourselves basically in a supervisory capacity, 
as it were, with regard to a private industry who is engaged in 
a constitutionally-protected activity. That is a serious matter 
and it bears some consideration and some discussion. I have a 
couple or three observations or points, I guess, as I think 
this thing through and as I thought about it last night, as to 
how to put this thing in perspective and what my obligations as 
a U.S. Senator were with regard to this. One observation, it 
seems to me--first of all, Mr. Chairman, I share much of your 
concern with regard to some of the product that we are seeing.
    As a grandfather, I shudder to think about what my small 
grandchildren are going to be faced with as they go out into 
the world. We all know that there is a lot of degrading stuff 
out there. Stuff comes into our televisions in the home that is 
unfortunate, to say the least. I think, in some ways, it is 
hardly arguable that some of it is even harmful for children. 
To what extent, we do not know. We, I think, also know that it 
is a part of a broader pattern of society, things that are 
going into society. We live in a world now where we see in the 
checkout line at the grocery store things that we had to work 
pretty hard, when I was growing up, as kids, to get our hands 
on, not that I ever did, of course. But that is what we are 
dealing with, and we also see in the entertainment industry the 
advent of the conglomerate, where there are very few 
individuals who come up and control segments of the 
entertainment industry much anymore. It is big corporate 
business. One company buys out another and is, in turn, bought 
out by another, some of them foreign, some of them domestic, 
movie industry, record industry. I live in a town where you 
cannot throw a rock without hitting a record producer or a 
record company.
    I think there is one independent local record company left 
in Nashville, Tennessee, and the significance of that, to me, 
anyway, is that clearly it becomes and it has become much more 
bottom-line oriented, with the decisions being made by people 
who are very absentee, in many respects, who have corporate 
ownership and corporate responsibilities and bottom-line 
responsibilities that produce pressures that we have not seen 
in times past. I think all that is true. I think all that is 
unfortunate. But another point that is equally true is that 
most, if not all, of this activity is protected by the First 
Amendment. Now, we may not like that. We may think that is 
unfortunate. We can argue around the edges and around the 
details.
    It pains me to tell these parents here the stark truth of 
the matter, and that is--and this is just my opinion--when it 
comes to legislation or congressional imposition of mandates or 
regulation and the imposition of fines, that we do not 
constitutionally have the power to do that. If you read the 
opinions of justices like Justice Thomas and Justice O'Connor 
and other justices on the Supreme Court, you see very readily 
that speech of this kind, including commercial speech, and any 
laws dealing with it, is viewed with strict scrutiny, and if 
the conduct is otherwise lawful and not misleading, it is 
probably going to be protected.
    We have accepted for a long time in this country that there 
is constitutional protection for some conduct that is abhorrent 
and bad. It is a limitation on government. It has to do with a 
broader consideration that the Founding Fathers thought were 
paramount. That is why John Adams defended those British 
soldiers for shooting those patriots. I do not know how many 
people have ever watched a criminal walk out of a courtroom 
because the murder weapon was seized pursuant to an illegal 
search. Those are trade-offs that we make in this society and 
have made for some time.
    So, that being the case, matters that rightfully concern 
all of us, but matters that have this protection, what is the 
role of Congress? What should we be doing about conduct that 
is, in some cases, bad, but conduct that is legal? If we cannot 
legislate, and I know that some might disagree with me on that, 
but that is my firm opinion. I am willing to discuss it. If we 
cannot legislate, what can we do? Should we use, as a Congress, 
our bully pulpit, as a Congress? That is a very inviting 
prospect, I think, for many, and I am not sure about that. But 
the only question to me is who is going to be the next group 
that is engaged in legal, constitutionally-protected activity 
who is brought up before us because we disapprove of their 
conduct? That is a serious question that I think we are going 
to have to ask ourselves, even the Federal Trade Commission.
    But we have to acknowledge the fact that it appears that 
some good things have come from the Federal Trade Commission. 
They say that the industry ought to police itself, and while I 
question whether or not the President or the Commerce Committee 
or any of the rest of us ought to be sicking a regulatory 
agency on one as a general principle, if they are engaged in 
legal conduct, I must acknowledge that the industry has 
responded to some of these things and the FTC found out things 
about some in the industry that were very beneficial, because 
they found that they were engaged in inexcusable activity, in 
some cases, and steps are being taken to remedy that.
    So it is not an easy thing to answer, for me. I do think 
that Congress needs to be concerned that we not, through our 
actions, encourage or discourage the beneficial activity that 
has been taking place in the industry. There is no law 
requiring these rating systems, and while I think that it 
certainly merits discussion in some appropriate forum, as to 
what these systems ought to be and how they could be improved, 
what we need to keep in mind is nobody is requiring anybody to 
do that, and if we penalize people for not doing it the way we 
think is right, they can quit doing it altogether, and I do not 
think that that would be a good thing. I think we need to keep 
that in mind.
    So what do we do as a society, as a people, as individuals? 
I think there is a lot that we can do about something that 
concerns all of us. I think we as individuals can use our bully 
pulpit. That is what the Chairman and Bill Bennett have done so 
effectively--Sam Brownback and others have done so effectively 
as individuals going out, Bennett being a totally private 
citizen. Just because you are a politician does not mean you 
lose your First Amendment rights, and you can give your opinion 
about what is going on, and we as citizens and fathers and 
grandfathers and grandmothers ought to be free to do that. 
There is certainly a lot the entertainment industry can do and 
should do. I think they are moving, in some cases--not all--but 
in some cases, I think they are moving in the right direction. 
I think they are struggling with this. I think they need to do 
more.
    As I said, even the FTC says that this really ought to be 
something that the industry takes care of itself. To me, it is 
not just about ratings. I hope we do view ratings and proper 
ratings as a panacea to the problems that we are facing. In the 
first place, we are never going to agree. My personal opinion 
is that I think things that come into television on a regular 
basis in the homes that small kids see are worse than ``Saving 
Private Ryan.'' R-rated, I believe ``Private Ryan'' was. I 
would hope that every 15, 16-year-old boy would see that movie 
if he did not otherwise have problems; a very violent movie, 
but it shows everything that young people ought to be exposed 
to. It shows the terrible carnage of war. It shows sacrifice. 
It shows honor. It shows these young people what their 
granddaddies did for their freedom.
    So we have a disagreement right there. That is my personal 
opinion. Other people will view things differently. With regard 
to ratings, too, there are too many ways around them. You can 
have perfect ratings. There are too many resources young people 
have to get in to see an R-rated movie, if they want to, and 
certainly music. We cannot protect our most vital nuclear 
secrets in this country. You think we are going to keep Eminem 
records and tapes out of the hands of young kids who want them. 
Plus the fact that I think the ratings system is very good for 
parents and for parents who are concerned and parents who use 
them. That is a large segment of people, but we need to 
recognize that there are a large segment of these kids where 
parents are not involved, where there is certainly no better 
than a one-parent situation, where their main concern is not 
ratings, movies, and records. It is getting by. These things 
are totally irrelevant to those people.
    So while these things are good and they need to be 
perfected and they serve their purpose, I hope we do not look 
upon that as a panacea. I would hope that getting to the root 
of the problem, that the industry would simply start doing 
better with regard to the kinds of things they choose to show. 
It is not Congress that the industry should be concerned about. 
It is their own conscience in the board rooms. I do not think 
this is a pipe dream. I think we have a lot of responsible 
people out there who want to do the right thing. I talk to 
people. They have kids--and actors, and whatnot--and I do not 
know of one that somewhere along the line has not chosen to 
turn something down because it had no redeeming social value 
and was exploitive or the language was something that they did 
not want.
    I cannot believe that an industry feels that it can undergo 
the criticism that it undergoes, and cannot respond to that. I 
think responses are being made. I think more needs to be done, 
because equally I cannot believe that being lucky enough to be 
a part of an industry that has the ability to uplift and 
inspire, that is the common denominator of American society, 
whether it be movies or music. You go into a bank, the one 
thing the bank president and the janitor have in common, they 
grew up on the same movies and they grew up on the same music, 
tremendous opportunity to do good. That does not mean that it 
has to be pablum. That does not mean that it has to be things 
that we all agree with or even tasteful or anything like that. 
But I think--and certainly in the music industry--I think just 
some responsibility as corporate citizens--corporations give 
millions and millions of dollars away for charitable purposes 
to benefit their community. This is something that could be 
done that would be beneficial in just making things a little 
bit better. That is the industry part.
    I think what these private groups are doing are the most 
important part of this entire equation. I think by getting out 
and organizing and bringing some of these things that are most 
offensive to people's attention, and shaming where appropriate, 
I think that is golden. I think that is right on. I think if 
you want to get together and someone is especially egregious 
and not buy their products or not patronize people, that is 
your constitutional right and I say go for it, make your 
decisions about that.
    We asked Wal-Mart to come here. Wal-Mart ought to be held 
up as an example of what can be done in American society to 
deal with this. They simply choose not to carry some of this 
stuff. They make the decision, the subjective decision, that 
others might disagree with, but they make it and they leave 
some dollars on the table by making it. Until these hearings I 
suppose, nobody knew about it. I did not know about it until we 
got into this discussion. So it is a good thing that has come 
out of it. Of course, last, but not least, parents: I think we 
have a roomful of concerned parents here today, and I think 
that this record sticker that we have on records now, parental 
notice, what they are telling you with that sticker is that 
this is bad stuff, and does it really matter how bad? If 
parents just said we are not going to buy anything with this 
sticker on it and you are not going to have it, I think it 
would have an effect.
    So, Mr. Chairman, I have gone on too long, but this is 
important, and I obviously feel that this is not whether a line 
should be drawn. The question is who should draw it, and I 
trust that--as I say, I have the greatest respect for what you 
have tried to do, and I hope you take my comments in the spirit 
in which they are given, and in searching for a way, as a 
society and as a people, to do something constructive, to do 
something proper, in keeping our role in all of that in proper 
perspective. Thank you very much.
    Chairman Lieberman. Thank you, Senator Thompson, for a very 
thoughtful statement, and I truly do look forward to working 
with you to find the right role for government, for the private 
sector, for us as individuals and parents as we try to create 
an environment in which we can raise our children that is 
conducive to the best for them and our country.
    I am delighted that Senator Brownback is with us today. He 
has been a leader in this cause, outspoken and very 
constructive, and we welcome your testimony now. Thank you.

TESTIMONY OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing on this important topic. I 
think we held the first one together in this room 4 or 5 years 
ago on a similar topic, and hopefully have made some progress 
along the way, but I appreciate your holding it, and the 
Ranking Member, Senator Thompson, as well. If I could just 
start out with the thought that the parents in America need as 
much information on what their minds consume and what our 
children's minds are consuming for entertainment as what our 
bodies consume for food. That is really what we are talking 
about here--getting adequate disclosure to the parents of what 
their children are receiving, mental images that are being put 
in there, as we are concerned about their food.
    We are concerned about what our children eat. We are 
concerned about whether our children are smoking or not, as we 
should be. We should be equally concerned about what their 
minds are consuming and what it does to our children and what 
it does to our country. If we are to rate the ratings, there 
needs to be some agreement on what the criteria are. I believe 
the purpose of the ratings system is to provide parents and 
consumers with accurate information in a manner that is 
accessible, simple, reliable and responsive.
    But if this is the criteria, then the ratings system taken 
as a whole is failing. It is failing parents, it is failing 
consumers, and ultimately I believe failing our children. I 
would like to address three key problems with rating systems: 
(1) is ``ratings creep''; (2) is the lack of independence, and 
(3) is the lack of standards. First, many of the various 
ratings or label systems suffer from what has been called 
``ratings creep''; that is, many movies, shows and albums that 
parents find objectionable are rated as being appropriate for 
children and even target-marketed to children. Various studies 
have found that the industry ratings tend to be far more 
lenient than what parents would choose themselves.
    When the entertainment industry has rated something as 
inappropriate for children, whether it is an R-rated movie or 
an M-rated video game, parents almost always agree. But the 
disagreement between the parents and the industry is deep and 
wide over products that are rated as fine for children. What is 
even stranger is, as the Federal Trade Commission reported, 
even when the industry acknowledged that their products were so 
violent or vulgar, or contained so much sexual content as to be 
inappropriate for kids, the industry in many respects continued 
to intentionally target-marketed these products to kids. This 
is a sham and it is a shame, and it is not without 
consequences.
    Tomorrow, I will be hosting a forum, along with the 
Chairman of this Committee and Senator Dorgan, which will 
examine the impact of explicit sexual material, so common in 
popular entertainment, on youth attitudes, health and well-
being, and I invite everyone to attend. Common sense and common 
experience indicates that it does have an impact, and a harmful 
one at that. One year ago, we convened the first public health 
seminar on entertainment violence, and the leaders of six of 
the most prominent and prestigious public health organizations 
in the country, including the American Medical Association, the 
American Academy of Pediatrics, the Psychological Association, 
the American Academy of Family Physicians, and so on, all 
signed a consensus document which asserted that exposing 
children to violent entertainment can contribute to or even 
cause increases in aggressive behavior and attitudes, just as 
consuming too many fatty foods can have a direct impact on our 
health.
    In short, Mr. Chairman, the failure of the ratings to 
accurately inform and the failure of the entertainment industry 
to adequately self-regulate results in very real harm to 
children. Now, I am not arguing for government to get involved 
in the business of rating entertainment, and I take to heart 
the statements of Senator Thompson. But I am stating that any 
effective entertainment rating system must do a much better job 
of reflecting the very real concerns of parents.
    The second great failing of the rating system is the lack 
of independent judgment. This is a much bigger problem with 
some entertainment media than with others. The video game 
industry, to its credit, convenes an independent entertainment 
software ratings board, which recommends ratings to the 
industry, which are then followed. However, other entertainment 
media have not followed their example. The movie raters are 
required to be parents, but are paid by the industry and known 
only to a few industry insiders. The music industry is by far 
the worst of all.
    The decision as to which album receives a parental advisory 
label is made by some employee of the company producing the 
album. No one on the outside knows who it is, or if they 
disagree with the decision, whom to contact to complain. It is 
hard to imagine how to come up with a system with less 
accountability. A third failing of some of the entertainment 
rating system is the lack of recognizable standards. No one 
knows why a particular album, show or film got the rating it 
did. So when parents ask very reasonable questions such as: Why 
did this album by Prodigy with the lead single song ``Smack My 
B - - - - Up,'' not receive a parental advisory label? There is 
no answer besides the fact that someone somewhere in the 
company that produced and promoted that album thought no 
parental guidance was necessary.
    Or why would the movie ``American Psycho,'' which 
originally received an NC-17 rating, which is quite an 
extraordinary achievement when you consider that movie ratings 
folks have only considered four films nationally released films 
in the last decade to deserve an NC-17 rating, was allowed to 
get an R rating after cutting only three seconds-worth of 
footage. Of course, some decisions have to be judgment calls. 
We can all agree on this. But we should also be able to agree 
that those judgments should be guided by standards that 
entertainment companies are willing to articulate and parents 
are able to understand.
    There are several things I believe we can and should do. 
First, each rating system should develop clear and 
comprehensible standards for rating entertainment products and 
make those standards accessible to parents and consumers. That 
seems to be simple and almost an undeniable request. Second, 
ratings and labeling decisions should be made by an independent 
body that is not connected in any way to the company that 
stands to profit. Third, entertainment companies should make 
the labeling- and ratings-decision process open to public 
scrutiny. If they are truly interested in ensuring that the 
ratings serve the needs of parents, they will be interested in 
hearing what parents have to say about them. Fourth, more 
information on content should be available rather than relying 
on age ratings alone, more information available.
    Some parents may be more concerned about exposing their 
children to violence than to profanity or vice versa. Content 
information helps parents make informed decisions about 
entertainment consumption by their children. In addition, 
providing information on content reduces the amount of 
confusion parents experience in trying to decipher a variety of 
different rating systems. As it is, there is one system for 
movies, and a different, and I believe, a particularly 
confusing one for television, another for video games and a 
generic label for music.
    It is difficult for parents to make sense of the alphabet 
soup of ratings. In contrast, content description is 
universally understood. We need more information. It needs to 
be clearly rated out there. It needs to be readily understood 
by the parents so they can know what their child is consuming. 
Just as food labels provide clear information to parents on 
what their kids are consuming, entertainment labels should let 
parents know what is being fed to their child's mind.
    Mr. Chairman, I have long admired your work in this area 
and have worked side-by-side with you and I look forward to 
continuing to do this. I believe there is a great deal of 
limitation of government's role in this, as we have talked many 
times and I have spoken in front of this Committee about. These 
are simple things that the industry itself can do, and should 
do. They do not impact the First Amendment and in almost every 
regard they ask for more information, not a limitation on any 
information. I think they would readily help parents. I know 
they would certainly help this parent.
    Thank you very much and I look forward to any questions.

                PREPARED STATEMENT OF SENATOR BROWNBACK
    Good morning. I want to thank Governmental Affairs Committee 
Chairman Joe Lieberman for holding this hearing to discuss an issue 
that I know is a great and abiding concern for both of us.
    If we are to rate the ratings, there needs to be some agreement on 
what the criteria are. I believe the purpose of the ratings system is 
to provide parents and consumers with accurate information in a manner 
that is accessible, simple, reliable and responsive. But if this is the 
criteria, then the ratings system, taken as a whole, is failing--
failing parents, failing consumers, and ultimately, failing children.
    I would like to address three major problems with various ratings 
systems: Ratings creep, the lack of independence, and the lack of 
standards.
    First, many of the various ratings or labeling systems suffer from 
what has been called ``ratings creep''--that is, many movies, shows and 
albums that parents find objectionable are rated as being appropriate 
for children, and even target-marketed to them.
    Various studies have found that industry ratings tend to be far 
more lenient than what parents would choose. When the entertainment 
industry has rated something as inappropriate for children--whether it 
is an R-rated movie or a M-rated video game, parents almost always 
agree. But the disagreement between parents and the industry is deep 
and wide over products that are rated as fine for kids. What is even 
stranger, is that, as the Federal Trade Commission reported, even when 
the industry acknowledged that their products were so violent or vulgar 
as to be inappropriate for kids, they target-marketed to kids anyway. 
This is a sham, and a shame.
    And it is not without consequences. Tomorrow I will be hosting a 
forum--co-hosted by both the chairman of this committee and Senator 
Dorgan--which will examine the impact of the explicit sexual material 
so common in popular entertainment on youth health, attitudes, and 
well-being. (I invite everyone to attend.) Common sense and common 
experience indicate that it does have an impact--and a harmful one at 
that. One year ago, I convened the first public health summit on 
entertainment violence. The leaders of the six most prominent and 
prestigious public health organizations in the country--the American 
Medical Association, the Academy of Pediatrics, the Psychological 
Association, the Family Physicians, and so on--all signed a consensus 
document which asserted that exposing children to violent entertainment 
can contribute to or even cause, increases in aggressive behavior and 
attitudes. In short, Mr. Chairman, the failure of the ratings to 
accurately inform, and the failure of the entertainment industry to 
adequately self-regulate, result in very real harms to children.
    I am not arguing for government to get in the business of rating 
entertainment. But I am stating that any effective entertainment rating 
system will do a much better job of reflecting they real concerns of 
parents.
    The second great failing of the rating system is the lack of 
independent judgment. This is a much bigger problem with some 
entertainment media than with others. The video game industry, to its 
credit, convenes an independent Entertainment Software Ratings Board 
(ESRB) which recommends ratings to the industry which are then 
followed.
    However, other entertainment media have not followed their example. 
The movie raters are required to be parents, but are paid by the 
industry, and known only to a few industry insiders. The music industry 
is, by far, the worst of all. The decision as to which albums receive a 
parental advisory label is made by some employee of the company 
producing the album. No one on the outside knows who it is, or, if they 
disagree with the decision, whom to contact to complain. It is hard to 
imagine how to come up with a system with less accountability.
    A third failing of some of the entertainment ratings systems is the 
lack of recognizable standards. No one knows why a particular album, 
show or film got the rating it did. And so when parents ask very 
reasonable questions, such as ``Why did this album by Prodigy with the 
lead single song `Smack My Bitch Up' not receive a parental advisory 
label?'' There is no answer--besides the fact that someone, somewhere, 
in the company that produced and promoted that album, thought no 
parental guidance was needed. Or why the movie ``American Psycho,'' 
which originally received a NC-17 rating--quite an extraordinary 
achievement, when you consider that the movie ratings folks have only 
considered four national releases in the last decade to deserve a NC-17 
rating--was allowed to get an ``R'' rating after cutting--and their 
producers bragged about this--only 3 seconds worth of footage.
    Of course, some decisions have to be judgment calls. We can all 
agree on this. But we should also be able to agree that those judgments 
should be guided by standards that entertainment companies are willing 
to articulate and parents are able to understand.
    There are several things that I believe can and should be done.
    First, each rating system should develop clear and comprehensible 
standards for rating entertainment products, and make those standards 
accessible to parents and consumers.
    Second, ratings and labeling decisions should be made by an 
independent body that is not connected in any way to the company that 
stands to profit.
    Third, entertainment companies should make the rating and labeling 
decision process open to public scrutiny. If they are truly interested 
in ensuring that the ratings serve the needs of parents, they will be 
interested in what parents have to say about them.
    Fourth, more information on content should be available, rather 
than relying on age ratings alone. Some parents may be more concerned 
about exposing their children to violence than to profanity, or vice 
versa. Content information helps parents make informed decisions. In 
addition, providing information on content reduces the amount of 
confusion parents experience in trying to decipher a variety of 
different ratings systems. As it is, there is one system for movies, a 
different--and, I believe, particularly confusing one--for television, 
another for video games, and a generic label for music. It is difficult 
for parents to make sense of the alphabet soup of ratings. In contrast, 
content description is universally understood.
    I also want to note that I have not been a proponent of a 
federally-mandated universal rating system. I believe that the best 
route to take is for the entertainment industry to responsibly self-
regulate, rather than the Congress to regulate. It is, I believe, the 
best way to keep our children--and speech--protected.
    Thank you, Mr. Chairman.

    Chairman Lieberman. Thank you, Senator Brownback. Thanks 
for taking the time to be here. Thanks for excellent testimony 
and some very constructive suggestions. I look forward to being 
with you at your forum tomorrow.
    We will call the second panel now: Dale Kunkel, Roger 
Pilon, Dr. Michael Rich, and Laura Smit. Thank you all very 
much for being here. I very much look forward to your 
testimony.
    We will begin with Dale Kunkel, who is a Professor of 
Communication at the University of California, Santa Barbara, 
and a leading expert in the field of media violence. Good 
morning.

       TESTIMONY OF DALE KUNKEL, Ph.D.,\1\ PROFESSOR OF 
    COMMUNICATIONS, UNIVERSITY OF CALIFORNIA, SANTA BARBARA

    Mr. Kunkel. Good morning, sir. In my comments today I wish 
to cover two primary points. First, how well are media ratings 
working to assist parents? And, second, how can media ratings 
be improved? On the first point, how well are media ratings 
working, there are two key issues to consider. One is the 
concern that parents may not understand and, therefore, may not 
use the media rating systems to help guide their children's 
media use or exposure; and the other is that media content may 
not be accurately labeled. If that happens, inappropriate 
material may then slip through the cracks in the filtering 
system of the V-chip or other rating formats even when parents 
actively employ them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kunkel appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    Studies that examined parents' use of the V-chip system 
have produced somewhat mixed results to date. Research 
indicates that while a substantial proportion of parents know 
about the ratings, there is a lot of confusion about the 
meaning of the various categories and labels. This may explain 
why only a modest proportion of parents report using the 
ratings currently. Starting in 1999 the Kaiser Family 
Foundation reported that three out of four parents said they 
would use the V-chip if they had one. But the same study also 
found that just slightly less than half of parents often or 
sometimes use the TV ratings to help guide their children's 
viewing. More recent research by the Annenberg Public Policy 
Center found that only about 50 percent of parents were even 
aware of the V-chip ratings in the year 2000, compared to 70 
percent in 1997 when the press coverage of the rollout of the 
new system was at its peak.
    This reduction in the awareness of ratings almost certainly 
stems from the lack of any significant effort by the TV 
industry to publicize the ratings framework. Even among those 
parents who know about the rating system, confusion abounds 
about the meaning of many categories. For example, most parents 
mistakenly believe that the FV designation is meant to identify 
programs appropriate for family viewing, when, in fact, it 
signifies fantasy violence, the strongest warning that can be 
applied to children's programming under the current V-chip 
system. Given this confusion within the V-chip rating system 
itself, it is hardly surprising that the lack of consistency 
across rating systems that are used for different media leads 
to consternation on the part of parents trying to figure it all 
out.
    The second key issue to consider in assessing the efficacy 
of media ratings is whether or not the content that poses the 
greatest risk of harm to children is labeled accurately. 
Research I have conducted in the first and second years 
following the adoption of the V-chip system indicates that the 
age-based rating judgments were being applied accurately, but 
that the content-based descriptions, those are the V for 
violence and an S for sex designations, were not. Indeed, the 
majority of programs that contain violence did not receive a V 
rating and, thus, any parent using the V-chip to screen out 
programs rated with a V, would accomplish little in terms of 
reducing their child's exposure to TV violence. If this pattern 
persists today, parents cannot effectively screen out violent 
portrayals by relying upon the content-based aspect of the V-
chip system.
    Similarly, the accuracy of programs is also questioned by a 
recent study from the National Institute on Media and the 
Family. This research found that parents tend to rate programs 
in a much more restrictive fashion than the judgments that are 
applied by the TV industry. Given the obvious economic 
incentive for TV networks to rate programs leniently--this too 
is a worrisome finding.
    So, how can media ratings be improved? The assignment of 
media ratings are determined solely by the industry and 
practically speaking there is probably no alternative to that 
course. Nonetheless, there is a rich body of scientific 
research that identifies the types media content that pose the 
greatest risk to children. More training, education and 
sensitivity on the part of raters to the relevant research 
about media effects on children is needed. In addition, more 
active monitoring and oversight of the ratings process is also 
called for. While several of the media rating systems maintain 
advisory boards, none of these have played a vigorous role to 
date.
    There is a precedent for the television industry to fund 
truly independent research from neutral parties to evaluate its 
performance in presenting violence responsibly. This was done 
with the National Television Violence Study in the 1990s. Such 
an effort should be considered to evaluate the accuracy and 
consistency of rating judgments for the V-chip system, as well 
as for other media rating systems.
    And finally, it is time to seriously consider the prospects 
of a universal rating system that could be applied across all 
media. The lack of consistency across media and their rating 
formats makes it incredibly difficult for parents to make sense 
of it all. For example, a media product that includes extreme 
violence would be rated R if it were a movie, TV-MA if it were 
a TV show, M if it were a home video game, or have a parental 
advisory sticker if it were a music CD. As Senator Brownback 
noted, an apt comparison here involves the uniform system of 
food labeling that is employed in this country, a consistent 
framework that indicates calories, grams of fat and so on is 
included on all food packaging and the uniformity of the system 
is what facilitates the easy comparison for consumers.
    The potential value to parents of a uniform rating system 
is too great to pass up without serious consideration by all of 
the media industries. That consideration will not come without 
strong prompting from the public and hearings such as this are 
an important catalyst to help focus the attention of busy and 
overwhelmed parents. I commend this Committee for its pursuit 
of this issue and its contribution to the ongoing public 
dialogue about the topic of media ratings.
    Thank you.
    Chairman Lieberman. Thanks very much, Professor Kunkel. I 
look forward to questioning you on a few of the statements you 
made. Our next witness is Roger Pilon, who is the Vice 
President for Legal Affairs at the Cato Institute and is a 
scholar in Cato's Constitutional Scholars Program.
    Good morning.

 TESTIMONY OF ROGER PILON, Ph.D., J.D.,\1\ VICE PRESIDENT FOR 
    LEGAL AFFAIRS, B. KENNETH SIMON CHAIR IN CONSTITUTIONAL 
  STUDIES, DIRECTOR OF THE CENTER FOR CONSTITUTIONAL STUDIES, 
                         CATO INSTITUTE

    Mr. Pilon. Good morning. Thank you very much, Senator 
Lieberman and Senator Thompson, for your kind invitations to 
address this Committee. I was invited, as you know, to address 
the question of whether the ratings are working for parents and 
what can be done to improve them, as well as the issues that 
are raised in the National Institute letter that you 
referenced, Senator Lieberman, together with the bill that you 
referenced at that same time, the Media Marketing 
Accountability Act of 2001.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pilon appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    Let me say at the outset that I share many of the concerns 
raised in the institute's letter, concerns that you have raised 
over the years, Mr. Chairman, about the quality of some of the 
entertainment that has been produced and distributed in America 
for some time, especially as it bears on the development of 
children. Obviously, this is a land of many tastes. Given our 
relative freedom and the market system we enjoy, producers will 
rise to satisfy those tastes. That can coarsen our culture, 
giving rise to entertainment that some would prefer not to have 
in our midst. Yet, the very freedom that enables that fare to 
arise also enables great and often controversial works to 
flourish as well.
    The issues here are ancient, of course. Sex and violence 
have been a part of entertainment and literature from the 
outset of civilization. The only question is what we are going 
to do about it, and on that, I want to part company with the 
thrust of the institute's letter and especially with the bill 
that you have introduced, Mr. Chairman, about which I will say 
a little bit toward the end of my remarks. In doing so, 
however, I want to make it clear that I am not here to 
represent the entertainment industry. I speak only for myself 
and, of course, I share the views of the Cato Institute in 
favor of individual liberty and limited constitutional 
government, views that will animate my remarks this morning.
    To go to the heart of the matter without elaboration for 
the moment, given the limits imposed on Congress by the 
Constitution and the First Amendment, I would ask why these 
hearings are even being held. Why, in fact, are they being held 
before the Governmental Affairs Committee? This is not dealing 
with government management, rule over the District, campaign 
finance and the like, the ordinary stuff of this Committee. So 
one wonders why it is this Committee is holding these hearings, 
especially given the constitutional restraints. It is an odd 
fit, at least.
    Having noted my interest in these hearings and my basic 
concern about the proper role of government, which is the 
concern that Senator Thompson raised in his opening remarks, 
let me turn now, Mr. Chairman, to the question immediately 
before us. I am afraid I do not know precisely how well 
entertainment ratings are working for parents, nor does anyone 
else. I am struck, in fact, by the National Institute's letter 
when it presumes to speak for parents, as if parents spoke with 
one voice on the matter. Their letter claims, for example, that 
parent and child development experts disagree on the current 
media ratings. No doubt, some do. At the same time annual 
national surveys conducted by the Opinion Research Corporation 
of Princeton, New Jersey, show growing parental satisfaction 
with the voluntary movie rating system. The latest poll in 
September revealed that 81 percent of parents with children 
under 13 found the ratings very useful or fairly useful, 
whereas only 17 percent found the ratings not very useful. I 
daresay the Members of this Committee would salivate over 
ratings like those.
    More precisely, however, the National Institute claims the 
voluntary rating system now in place for television, video 
games, motion pictures, and music fail to identify sensitive 
material accurately, consistently, or in a way that helps 
parents. They call for an independent ratings oversight 
committee, a committee that would create a universal rating 
system. Although they do not call for government action here, 
one wonders if there is not a hidden agenda somewhere--perhaps 
government grants in support of the research they call for, or 
perhaps more extensive public-private partnerships are in the 
offing, including a commission with coercive legal powers.
    Quite apart from such possibilities, however, one also 
wonders why, if the concerns are as well-founded as they report 
to be, there is not more private support to see them 
implemented. Why, that is, does the National Institute feel it 
necessary to come to Congress? If the findings are all that 
well-founded, there should be plenty of private support in the 
private sector. And, I submit, that is where they ought to 
focus their attention. Nevertheless, they have come here, so I 
want to address the issues they have raised, especially with 
respect to the lack of accuracy and the inconsistency in the 
systems of ratings now in place.
    That implication is problematic at best. Given the 
subjectivity that is inherent and inescapable in applying any 
rating system, consistency could be hoped for only if the 
ratings were somehow centralized. But look at the numbers and 
see what you are up against here: 650 films each year; 2,000 
hours a day of TV programming--the equivalent of 1,000 movies a 
day; 1,300 computer and video games, forget about web sites; 
40,000 music releases. If you are going to have a Committee 
review this, I daresay, there are not enough hours in the day, 
in the month, in the year to do so. It will have to be done by 
Subcommittees and, therefore, all the inconsistency has a 
chance of creeping right back in again.
    When you turn to the accuracy issue, you run into similar 
problems. This is an extraordinarily subjective undertaking. 
How many sexual events or violent acts and of what kind, given 
the larger context of the work, enter into that judgment? This 
is not mathematics. It is not even science. And yet science 
purports to underpin the National Institute's letter. They 
speak of the validity of the research known to the scientific 
community, but that research is anything but settled. You said 
in your bill's discussion of congressional findings, Mr. 
Chairman, that most scholarly studies on the impact of media 
violence find a high correlation between exposure to violent 
content and aggressive behavior. With all due respect, Mr. 
Chairman, that is false. Dr. Jonathan Freedman of the 
University of Toronto did an exhaustive study of the research, 
some 200 studies in the English language, and he found the 
research does not provide consistent or strong support for the 
hypothesis that exposure to media violence causes aggression or 
crime. In fact, he continues: Fewer than half of the studies 
provide evidence that supports the causal effect, while many 
find evidence against such an effect.
    There are deeper problems with this approach, as well, 
namely, that the behaviorism and the reductionism that is 
implicit in this approach is denigrating in many ways to human 
beings. It deprives us of the choice, suggesting that we do not 
have choice in these matters. It invokes a kind of stimulus-
response model, which may be appropriate for analyzing the 
behavior of lower forms of life, but certainly is not for human 
beings. The irony, in fact, of the causal model is that it 
denigrates us in the name often of uplifting us.
    Let me conclude, Mr. Chairman, with just a couple of legal 
comments, which I have developed more fully in my prepared 
testimony.
    Chairman Lieberman. Let me say that your full statement and 
those of all the witnesses will be printed in the record.
    Mr. Pilon. Thank you very much. There are serious 
constitutional problems. First, with the fundamental 
constitutional question: Where is the authority of Congress to 
do anything in this area? And second, with the question: Even 
if there were authority, how can you do so without running 
afoul of the guarantees provided by the Constitution? I develop 
those points more fully in my testimony. I will not go through 
them here. I will just conclude by saying that this appears to 
be a classic example of a problem searching for a solution in 
the wrong place, namely, government.
    The Founders established a limited constitutional 
government on the understanding that not every problem required 
a government solution. The problem here is occasional 
irresponsible behavior. How occasional is open to debate. The 
solution, as with most examples of irresponsibility, is moral 
suasion. Will that solve the entire problem? Of course not, but 
it is far better, as the history of overregulation has 
demonstrated in spades, than introducing the heavy hand of 
government where it does not belong, morally or 
constitutionally.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Mr. Pilon. You have raised very 
provocative questions. Let me just respond to one, which is 
what this Committee is doing holding this hearing. This is the 
Committee that has specific jurisdiction, primarily an 
oversight committee, and the fact is that there are a whole 
series of governmental agencies that are currently involved in 
questions related to the impact of entertainment culture on 
children and on society, including the Federal Trade 
Commission, which you mentioned. The Federal Communications 
Commission, obviously, is constantly enforcing law. There is an 
existing statute that was passed on the rating system and V-
chip, which bears regular review. Tomorrow morning's forum that 
Senator Brownback is convening concerns research being done now 
under the auspices of the National Institute of Child and Human 
Development to gauge the impact of sexual material in the 
entertainment culture on behavior of children. So there is an 
oversight role there.
    I have also reached a judgment in my own concern about 
this, which as I said began as a parent, that so much else that 
we are trying to do here in Congress to better educate our 
children, to reduce the rate of crime, to deal with sexually 
transmitted diseases, to deal with the problem of children 
being born to unwed mothers, particularly teenagers, is 
affected--I never say caused--but it is affected by the values 
and messages conveyed by the entertainment culture. So I see 
some role there.
    And the third is to provide, as I said in my opening 
statement, a forum for people on both sides of the issue. We 
have a very balanced slate of witnesses today to speak out and 
see if we can find common ground. And each of us, as Senator 
Thompson said in his excellent opening statement--I think we 
are all concerned, as you are indicating in your statement, 
about the entertainment culture, and the question here is to 
find the appropriate role for government and other institutions 
of our society in responding to that concern.
    The next witness is Dr. Michael Rich, who is an Assistant 
Professor of Pediatrics at Children's Hospital, Boston, Harvard 
Medical School, an expert on media violence and its effects on 
children and a signer, along with Professor Kunkel, of the 
letter that has generated this hearing.
    Good morning, Dr. Rich.

TESTIMONY OF MICHAEL RICH, M.D., M.P.H.,\1\ CHILDREN'S HOSPITAL 
                 BOSTON/HARVARD MEDICAL SCHOOL

    Dr. Rich. Good morning, and thank you for the opportunity 
to testify before you today as a pediatrician, a child health 
researcher, a film maker and a parent. Our entertainment 
media--motion pictures, television, music and video games--
represent not only a successful industry, but an important 
cultural documentation of the United States as an idea and as a 
people. Our First Amendment-guaranteed free expression has 
allowed the creation of the most influential entertainment 
industry in the world, which generates a wide variety of 
products that excite, inspire, and move us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Rich appears in the Appendix on 
page 84.
---------------------------------------------------------------------------
    By allowing us to experience issues and events that 
otherwise may not touch our lives, media serve as potent 
teachers. Until recently, we have drawn an artificial 
distinction between education, which occurs in schools, and 
entertainment, which is fun, diverting, downtime for our minds. 
There is no downtime for a child's mind. Children are always 
curious, always learning. They adopt the ways of the world by 
observing and imitating. They cannot help but be influenced by 
media. The question is what are they learning? Unfortunately, 
Dr. Freedman is a sole dissenter among hundreds, thousands, in 
fact, of respected scientists around the world.
    The results of thousands of research studies on the 
relationship of media use to the physical and mental health of 
children are nearly unanimous. After exposure to media, 
attitudes and behaviors of children and adolescents in relation 
to violence, substance abuse, unsafe sexual activity, poor 
school function, eating disorders and other health risk 
behaviors are changed. The findings of hundreds of studies 
analyzed as a whole show that the strength of the relationship 
between television exposure and violent behavior is greater 
than that of calcium intake and bone mass, of lead ingestion 
and lower IQs, of condom non-use and sexually-acquired HIV, or 
of environmental tobacco smoke and lung cancer. These are all 
associations that we as clinicians accept and on which 
preventive medicine is based without question.
    It is not so long ago that, while the tobacco industry 
argued over scientific minutiae of the research, the medical 
community and society at large recognized the serious health 
risks associated with smoking and began to intervene. Look at 
how our personal attitudes and behaviors, our social 
environments and our public health awareness have changed for 
the better. We are at a similar crossroads in relation to media 
effects on health. It is time to be honest with ourselves, to 
acknowledge the risks, and to address them in a serious and 
responsible manner.
    Media rating systems are not new or controversial. Child 
health professionals, parents and the entertainment industry 
have all voiced their support for a system whereby parents can 
determine how best to guide children's media consumption so 
that it is consistent with their values. The question is how 
best to design and implement such a system. To function 
effectively as a tool that parents can use, a rating system 
must be trusted, consistent and usable. From both the 
scientific perspective of a child health professional and from 
the practical perspective of a parent, I find several problems 
with the current systems.
    In assessing any health-related situation, I seek out 
information that is both valid and reliable. None of the 
current media rating systems have been tested for either 
validity or reliability, a basic first step in the assessment 
of any instrument used in public health or social science 
research. A recent study, published in Pediatrics, compared 
movie, television and game rating systems to a well-validated 
media evaluation instrument designed for parents. When the 
current rating systems for each of these three media indicated 
that a product was unsuitable for children, parents universally 
agreed. However, there were significant discrepancies between 
what parents and the rating systems found suitable for various 
age groups. Like bank errors, all of the mismatches were in one 
direction.
    The current rating systems were more lenient than parents, 
with as much as a 50-percent disagreement. If up to half of 
parents disagree with the media rating systems, there is 
significant concern that these systems may not be valid with 
the population for whom they were specifically designed. A 
second concern about the current rating systems is objectivity. 
The entities which assign current media ratings, as Senator 
Brownback indicated, range from artists and producers in the 
television and music industries to industry-appointed rating 
boards in the motion picture and gaming industries. The 
memberships of these boards are industry secrets, which is 
cause for concern about accountability.
    A recent Washington Post story interviewed a terminated 
member of The Motion Picture Ratings Board who violated his 
secrecy agreement to report an idiosyncratic, inconsistent and 
ultimately autocratic rating assignment process. Only the 
television rating system has an oversight board for their 
system, but by report, this board does not review all their 
ratings and, indeed, has not met often. When the entertainment 
industry rates their own product, there are powerful incentives 
to down-rate their creations in order to make it accessible to 
a larger market share. There is a strong tendency to create for 
the top end of a rating, competing in an ever-tougher market, 
to push the envelope with violence, sex, and other rating-
critical content.
    The ratings creep, indicated by large discrepancies between 
industry and parent assessment, may be the result of these 
pressures. Finally, there is public concern that that industry-
applied ratings are used as a tool for marketing to children, 
rather than protecting them. The discovery by the FTC of plans 
and procedures to market R-rated movies to children as young as 
eight did little to allay this concern. Current rating systems 
are complex, confusing and difficult for parents to use. They 
vary in structure, detail, and even approach, from the strictly 
age-based rating of motion pictures to the dichotomous parental 
warning of the music industry. After more than 30 years, 
parents feel they understand the motion picture rating system, 
but few understand and fewer still use the television and game 
ratings. In my own practice, 6 of 10 parents thought that FV 
stood for family viewing.
    A final concern to me as both a parent and a child 
development professional is that people will just throw up 
their hands and not use any ratings. The concept of age-based 
ratings is of concern to me. Essentially what that does is ask 
parents to accept the opinion of a group of strangers regarding 
what is appropriate material for their children, base solely on 
their dates of birth. It does not account for variations in the 
rates of child development, socialization or in the values of 
individuals or families.
    What are the possible solutions? What can the entertainment 
industry, consumers, and society as a whole do to make media 
ratings more effective in protecting the health of young 
people? First, we can attempt to generate ratings that are more 
valid and reliable. When parents and child development experts 
disagree by 50 percent, these ratings do not function as they 
were designed, because parents do not trust that the ratings 
are an adequate proxy for their own judgment. Second, ratings 
must be objective. If they could pass the same rigorous tests 
of validity and reliability as other social science 
instruments, they would function more effectively as a child 
protection tool.
    An independent oversight committee consisting of members of 
the entertainment industry, child development and public health 
professionals, social scientists and parents could ensure more 
democratic, representative and consistent applications of media 
ratings across media types and ensure regular evaluation of the 
ratings validity and reliability. Finally, the ratings need to 
be simplified and streamlined so they are understandable and 
user-friendly. A single universal rating system may be the 
solution. However, given the inherent differences between 
motion pictures and music, between television programs and 
video games, such a system would be difficult to design so that 
it would be simple, appropriately descriptive and protective, 
yet responsive to the differences in media.
    Any solution will be imperfect. However, from my 
perspective as both a pediatrician and a parent, a content-
based rating system similar to the content descriptors of the 
television ratings, would be the most useful, valid and parent-
friendly solution to rating our wide variety of entertainment 
media. Just as we want to look at a can's label and read what 
we are feeding our children's bodies, we should be able to 
determine with equal ease what we are serving are children's 
minds. Content-explicit ratings would not supersede parents' 
assessment of what their children of certain ages are capable 
of handling, and would be responsive to variations in values 
that families may hold in relationship to content.
    If parents know the media menu, they can choose 
thoughtfully and knowledgeably what they are feeding their 
children's heads. Media ratings are important to us as 
individuals and as a society. Designed and used properly, they 
allow us to create and consume a variety of media while 
protecting both child's health and creative freedom. Censorship 
is anathema to our free society. It suppresses the free 
expression of ideas and it stifles both science and culture, 
the mind and soul of our society. I know and love the 
possibilities of media, and I respect them. Entertainment media 
are not inherently dangerous. They are a powerful tool that 
must be used thoughtfully and wisely. Just as the same shovel 
can be used to hit someone over the head or to prepare a field 
for planting, so, too, media can harm or help.
    What we teach our children today will determine the world 
that they create for all of us tomorrow. It is our task as 
parents, as citizens, and as compassionate people to do what we 
can to teach our children the lessons that will help them make 
their world safe, healthy, and free.
    Thank you.
    Chairman Lieberman. Thank you, Dr. Rich.
    Finally on this panel, we are delighted to have Laura Smit, 
who in some ways represents the voices that we all hear at home 
and that bring us together around this topic. Laura Smit is a 
parent, a PTA president from Columbia, Maryland, and mother of 
two children--an 11-year-old girl and an 8-year-old boy. We are 
delighted to have you this morning. Thank you.

               TESTIMONY OF LAURA SMIT,\1\ MOTHER

    Ms. Smit. Thank you. I am honored to be here today, to talk 
about the rating systems from the point of view of a parent. I 
am, I think, an average mom, although my daughter, when she 
read my testimony, said, ``Mom, you're not average, you're 
special.'' I live in a suburban Maryland neighborhood. I drive 
the standard minivan. I am active with two PTAs. I help out 
with the neighborhood swim team and I do my share of carpooling 
and child chaffeuring.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Smit appears in the Appendix on 
page 89.
---------------------------------------------------------------------------
    In addition to these jobs, I have the constant burden of 
making daily decisions about my children's media consumption. 
Every day, I have to make judgment calls about what television 
programs to allow them to watch, what movies I am going to 
allow them to see, what electronic games they can play and what 
music they can listen to.
    Every day, I have to choose between being a good mom and a 
cool mom. When I am a good mom, I stick to my guns--no pun 
intended--and say no even if I have the slightest doubt about 
an entertainment product. When I want to be a cool mom, on the 
other hand, I sometimes take the risk of letting my children 
see or play something inappropriate, because I want my kids to 
fit in with their friends, because I want them to be happy, or 
sometimes just because I am tired of arguing.
    The good mom in me looks to the current rating systems for 
guidance and tries to determine why a particular media product 
has been given the rating it has. I try to figure out whether 
the rating is for violence (how much, what type?), for sexual 
content (are the people in bed, are they having sex, how much 
is shown, what kind of innuendos?) or language (is it lewd 
language, what types of words are used, what tone of voice?). 
Equally important, I try to figure out whether there are adult 
themes in this entertainment which make it inappropriate for 
children.
    Doing this requires a considerable amount of my time. I 
have to read movie reviews, look at web sites, and talk to 
other parents to see what they think, and I do not always have 
the time for all of this energy--or the energy for all of this 
sifting.
    On many days, I have to make a split-second decision, such 
as when a TV program comes on that I find questionable, but my 
son wants to see, as he has seen it advertised 20 times before. 
Or when we arrive at a movie theater and the movie we planned 
to see is sold out. Sometimes when the cool mom gives in, I end 
up feeling like a bad mom, a mom who is not protecting her 
children enough, and then I think ``why should I be put in this 
position?'' As parents, we spend billions of dollars on 
entertainment products for our children. Shouldn't the 
companies who make so much money from parents and children make 
our lives easier, not harder?
    Some of you may think I am making a mountain out a molehill 
here, but each of you can remember, I am sure, a particular 
forbidden movie that you begged your parents to see when you 
were young. But there is a huge difference between my task as a 
mother today and your mother's task. The difference today is 
that the level of extreme violence, foul language and blatant 
sexual content that my children are exposed to is on a totally 
different level than the fare that you and I were exposed to as 
kids. Is it surprising then that parents worry about what 
entertainment is doing to their children? It seems like on a 
daily basis I wonder, what will watching this movie do to my 
daughter? Will the sexual content in that movie give her a 
warped sense of what love and good relationships are all about? 
Is she old enough and mature enough to see this?
    For my son, my worries are will he act out when he sees a 
violent movie? Will he end up shooting someone because he plays 
violent video games, or will he end up committing suicide, 
having been rejected and bullied by his peers because I did not 
let him go over to his friends' houses to play first person 
shooter video games?
    My concern with these issues led me to the Lion and Lamb 
Project, a parent advocacy group which is working to inform and 
mobilize parents around the issue of the marketing of violent 
entertainment products to children. I attended a Lion and Lamb 
workshop for parents in 1999, and both the workshop and their 
web site, www.lionlamb.org, opened my eyes to many issues 
around violent entertainment, as well as the various rating 
systems. This hearing is about rating entertainment ratings and 
how well they are working for parents. I have here a handy 
little flyer that tells me all about the rating systems, except 
for the TV industry. All of you are familiar with this alphabet 
soup, and I will not go into detail about that, but are these 
letters really helpful to parents? Yes, they are helpful, and 
no, they are not helpful enough.
    For example, take movie ratings; many parents are confused 
about what is PG-13 and what is R. Some parents on my PTA told 
me they thought ``Planet of the Apes'' was an R-rated movie, 
based on the scary previews they saw with their children, often 
at PG movies. I know others who thought last year's James Bond 
movie, rated PG-13, ``The World is Not Enough,'' was definitely 
R-material, and on the other hand, ``Billy Elliott'' is a movie 
many of my friends thought would be a good movie to see with 
their kids, but it was rated R because it had too many F-words. 
Where is the line between PG-13 and R?
    The Motion Picture Association of America web site states, 
``PG-13, parents strongly cautioned some material may be 
inappropriate for children under 13,'' and I have to wonder 
what material. The MPAA site explains that a PG-13 film is one 
which, in the view of the rating board, leaps beyond the 
boundaries of the PG rating in theme, violence, nudity, 
sensuality, language and other content, but does not quite fit 
within the restricted R-category, and where are the boundaries 
of a PG rating? It is really hard for me to figure out what my 
11-year-old should see (and believe me she thinks she should be 
allowed to see everything) because PG-13 movies have such a 
range of theme and content. ``Tomb Raider,'' ``Pearl Harbor,'' 
``Legally Blond,'' ``What Women Want,'' and ``The Animal,'' are 
all PG-13. With video games, I am not sure what the difference 
is between a teen and a mature violent video games. ``Golden 
Eye 007,'' a T-game, does not seem that different to me, from a 
mom's perspective, from ``Quake III,'' which is a mature game. 
As far as I can see, many T-shooter games are similar to M-
games, except there is no blood and the people are animated, 
not real. But the whole point of the game is to shoot and kill. 
Why are we teaching our kids how to kill?
    With the Chairman's permission, I would like to have a teen 
demonstrate one of the teen-rated video games--it is called 
``Time Crisis''--at the end of my presentation.
    Chairman Lieberman. Fine.
    Ms. Smit. I have similar concerns with TV ratings and the 
one-size-fits-all parental advisory warning label. Again, the 
parental advisory warning label is a guide, but it does not 
give me the why I need. Music is a big concern for me. Radio 
music, which is cleaned up, sometimes entices kids into buying 
CDs that are inappropriate. My husband and I had an experience 
with this, with Eminem's music, long before all this publicity 
about him came out. We were at the mall and we let my daughter 
buy the ``Marshall Mathers'' CD, although I saw the parental 
advisory label. When we heard the CD on the way home in the 
car, we were horrified. So we told my daughter that she just 
could not have the CD, and we gave her back her money. She was 
embarrassed, but it was a big lesson for us.
    So parents need more help in trying to figure these things 
out. So what do I want in a rating system? As a mother, I would 
appreciate a clear descriptive labeling system, in addition to 
the age and parental guidance descriptors. The labels would be, 
as many have spoken about before, similar to the government-
mandated labels on food. When my son asks me if he can have a 
HaagenDaz ice cream cone, I know that he will be ingesting 11 
grams of saturated fat, 120 milligrams of cholesterol and 21 
grams of sugar, and it is my choice whether to let him have one 
or not. Likewise, my children consume a steady diet of 
entertainment products. Clear labels would provide me with 
concrete reasons for making a decision. With uniform labels on 
all entertainment products, it would still be my choice as a 
parent whether my children should consume the product or not, 
but labels would also make it much easier for me to give my 
children good reasons why something was not appropriate for 
them.
    Having descriptive labeling of entertainment products would 
really put the ``guidance'' into ``parental guidance.'' Parents 
are not one monolithic group. Every parent has different values 
and beliefs. The messages each individual parent received about 
sex, about violence, and about language when he or she was 
growing up, from their parents, from their church, from their 
school, all of those play into the type of guidance they will 
give their children today. Some parents are concerned primarily 
with sexual content, others worry more about the effects of 
viewing violence, and others focus more on language and 
obscenities their kids might be exposed to. What is OK for one 
parent might be totally unacceptable for another.
    The entertainment industry keeps saying that it is up to 
parents to make decisions. Well, I think labels would give us 
the tools to make these decisions. I would also need 
information on what the effects of the particular labels could 
be. If I knew something could be harmful to my child, I would 
be much more careful about letting him or her see it. Going 
back to the food examples, I know now why it is bad for me to 
eat foods high in saturated fat, cholesterol, sugar and sodium. 
I would like to have the same type of information for the 
effects of entertainment products. This labeling system would 
be a uniform labeling system across the whole entertainment 
industry, movies, TV, electronic games and music.
    Right now, each rating system is created and controlled by 
the industry group that stands to make or lose money, depending 
on how the product is rated. The lower the rating, the higher 
the profit. The result is a phenomenon that I know is talked 
about as ratings creep, ever more violent fare allowed into 
ever-lower categories. In short, we now have a system where the 
fox guards the chicken house. It is hard for me as a mother to 
trust such a system.
    I would want this uniform rating system to be created by 
child development experts, people who really care about the 
needs of both children and parents, professionals such as 
psychologists, teachers, pediatricians, guidance counselors, 
early childhood experts and others. Since all these industries 
claim their ratings are intended to help parents, I would think 
they would be happy to allow experts in child development to 
give parents the tools they need. I want to make it clear that 
I am not opposed to any artist producing any movie, video game 
or lyric that they want for adult consumption. What I am 
strongly opposed to is the marketing of blatantly adult-
oriented products to my children.
    As a country, we no longer market cigarettes, alcohol or 
pornography to children, but entertainment with inappropriate 
content is marketed to children every single day. Each movie, 
video game, TV program, and music album seems to push the 
envelope just a bit further in the depiction of graphic 
violence, language, and unhealthy sensuality. Just to give one 
example, inappropriate music is everywhere. My daughter loves 
to listen to her three favorite radio stations, which she found 
out from her fifth-grade friends about. We listen to songs 
about being caught ``butt-naked,'' making love on the bathroom 
floor. But it still shocked me when my third-grade son started 
singing the words to City High's song, ``What Would You Do,'' 
about a woman who sleeps with men ``for a little bit of money'' 
to feed her son, and his daddy's gone? What is this teaching my 
son?
    A psychologist friend of mine told me that a mother 
consulted him because she was convinced her 8-year-old daughter 
must have been sexually abused because she was repeating a 
sexually-explicit phrase over and over again. It turned out 
that she was just singing the lyrics of a song she had heard on 
one of her favorite radio stations.
    There is more blood, gore, machine guns, dead bodies, and 
sheer mayhem in today's movies than our parents could ever have 
imagined, let alone let us experience, and we know enough now 
about the effect of violent entertainment on children's 
behavior to know that viewing violence leads to increased 
violent behavior, especially among children.
    I know that there are no simple answers and no magic pills, 
and I am just a mom. But our country more than 30 years ago 
managed to put a man on the moon. I would like to request that 
in the year 2001, elected officials and corporate leaders do 
their best to find a way to label our children's entertainment 
products, so that parents can indeed make responsible 
decisions.
    Thank you for taking your time to listen to one parent's 
point of view. I hope that this congressional hearing will be 
the beginning of much-needed changes in the entertainment 
industry's rating system. The improvements I have suggested 
would be welcomed with open arms by parents who struggle every 
day to bring up their children to be peace-loving, responsible 
and healthy citizens, working toward a more civil society.
    Thank you.
    Chairman Lieberman. Thank you very much, Ms. Smit. I 
honestly believe that you speak not just as one parent, but for 
millions of parents and grandparents--three of whom are up here 
on the dais--about your concerns, and you did it very, very 
effectively. Incidentally, Senator Thompson and I both agreed 
that when we were kids, which admittedly was long ago, when 
dinosaurs roamed the Earth, we do not remember there being a 
forbidden movie, and I do think that some of that had to do 
with the fact that the folks in Hollywood had a code that 
guided what they did, their own code, not a government code.
    Senator Durbin. Mr. Chairman, are you familiar with the 
National Legion of Decency?
    Chairman Lieberman. Oh, yes. So they may have had an 
effect, too. Where are they when we need them? Anyway, thank 
you. Thank you very much. We will proceed now to questions by 
the----
    Ms. Smit. Excuse me. May we show 1 minute of this teen-
rated video game, named ``Time Crisis?''
    Chairman Lieberman. Who is this, Ms. Smit?
    Ms. Smit. This is Adam Neely. He is a friend of mine and a 
teen who knows how to play these games.
    Mr. Neely. I will be playing ``Time Crisis,'' a Play 
Station video game.
    Ms. Smit. And this is a teen-rated game.
    [Video game begins to play in the hearing room, but does 
not work.]
    Ms. Smit. I would like to show that the gun that he is 
going to be using is called a Scorpion, and when this gun was 
advertised, the magazine ad read--an endorsement from a 
policeman, who said, ``If I saw a person with this gun, I would 
shoot them.'' That is how realistic this gun is, that he is 
holding in his hand.
    Chairman Lieberman. Do you think it is working now? 
Otherwise, we will go ahead with the questions and then we will 
come back to you when it is. OK? Let me begin.
    Dr. Kunkel, I wanted to ask you--or is it Professor Kunkel? 
I wanted to ask you if you would respond to the statement that 
Dr. Rich made, that at this point the data, the studies that 
have been done, leave no doubt as to whether violence portrayed 
in the entertainment culture poses a risk to children.
    Mr. Kunkel. Well, there has been over a quarter-century of 
research that has been done on this topic and at the present 
time the following agencies, when they have reviewed the entire 
body of research, have all reached the conclusion that media 
violence contributes to real world violence and aggression in 
children. These include the U.S. Surgeon General, the National 
Institute of Mental Health, the American Psychological 
Association, the American Medical Association, the American 
Academy of Pediatrics. I can go on and on. All of these 
represent the best minds, the top leaders in their fields in 
public health and social science research and so on.
    What I think is outrageous is that at a hearing that is 
focused on media ratings--the reason we have media ratings, of 
course, is concern about the adverse public health impact of 
some of these media portrayals on children, and this panel--
twice we have heard mentioned a review of the literature done 
by a gentleman named Jonathan Freedman at the University of 
Toronto who happens to be about the only social scientist on 
the North American continent who disagrees with all of these 
findings. So, from my perspective, what I see is that this 
study which was funded by The Motion Picture Association of 
America--if the industry groups like MPAA wanted to know what 
is the effect of media violence on children, they do not need 
to do a new literature review. All they need to do is look to 
documents produced by the Surgeon General and NIMH and so 
forth. I think it is obvious what they are trying to do in 
commissioning a new study by the only naysayer to all of this 
research is to try and propagate a canard. You simply cannot do 
that given the state of scientific evidence today.
    Chairman Lieberman. Dr. Rich, I noted in the letter that we 
have referred to, from the National Institute on Media and the 
Family, which again you and Professor Kunkel signed, that there 
was the statement that the current ratings are not sufficiently 
health-based. I wonder what you meant by that and what role--
how you would change that from a public health perspective to 
see that the ratings were more health-based?
    Dr. Rich. I think this refers both to the confusing quality 
of the multiple rating systems and the difficulty that parents 
have using them, but more importantly to the fact that they 
tend to be aged-based for the most part rather than content-
based. We have decided that we just want to determine an age 
when we can produce an I.D. that says we are of enough age, 
just as we buy alcohol or vote, that we will be OK with certain 
media content. And I think that what the science says is that 
the effect of media on health is much more content-driven than 
an age-related phenomenon. We do know that children develop at 
different rates. Children are capable handling different things 
at different times. So a 14-year-old is not a 14-year-old is 
not a 14-year-old. As a result the role of the parent becomes 
that much more important. The person who knows this child best 
needs to be given the information on the variety of health risk 
behaviors that research has shown are concerning to make a 
decision for their individual child.
    Chairman Lieberman. Ms. Smit, I was interested in your 
portrayal at the end of your testimony about what you would 
like to see in a rating system, and part of it is clearly 
labels that are more informative. I was particularly interested 
in your desire to know more about the effects of media content 
on kids, and I wonder, having heard what the two previous 
witnesses have said, in comparing it to what you know about the 
impact of content of food, for instance, on children's health, 
what you think is the best way to convey that information about 
the effect of media content on your children's health.
    Ms. Smit. That is a very difficult question. Obviously, I 
am not a research scientist. I think about this a lot. I am a 
sexuality educator, so in that area, I know a lot about 
sexuality education, and people say to me why do you have a 
problem with your daughter watching things? Sometimes it goes 
back to what the Supreme Court Justice said about when you know 
pornography. I think that both in the area of violence and in 
sex, I just have an instinctive reaction, knowing my kids, I 
see something, like my daughter would love to watch Ally 
McBeal, and I do not want her to watch it because there are so 
many things that I cannot explain to her, because she has to 
have experienced a certain number of things and explain things 
and get things in kind of an order.
    Chairman Lieberman. She is 11, you said.
    Ms. Smit. Eleven. So I obviously wish I had an answer, but 
if I had an answer, I probably would not be sitting here. I 
probably would be sitting somewhere back there.
    Chairman Lieberman. Just let me take a moment. As a 
sexuality educator, what is your conclusion about the impact 
that the sexual messages in the entertainment culture have on 
kids' sexual activity, if any impact?
    Ms. Smit. Well, I think it has a lot of effect. I teach a 
class for eighth-graders, and I find them so cavalier about 
having sex--going to McDonald's and the movies and then having 
to have sex with a boy just because they went out together. I 
find them really cavalier about it, and it is really hard to 
teach them values about what a loving relationship is about. To 
me, sexuality education is teaching children to have positive 
feelings about sexuality, to know its place in their lives and 
to be responsible about it and not hurt other people. And I 
think that especially when I see sexual content that is 
misogynous or hurts other people, that upsets me.
    Chairman Lieberman. Let me come back, Professor Kunkel, and 
perhaps, Dr. Rich, to you. In the letter that we have referred 
to, there was a recommendation of an independent rating 
oversight committee, and I wonder what thoughts the signers of 
the letter had about that. I presume that was not thought to be 
a government group. So under whose auspices would it be formed 
ideally, and what would it do?
    Mr. Kunkel. Well, I think that depends in part on the 
future of ratings, whether they maintain independent ratings 
for each of the various media or whether there might ultimately 
be some uniform rating system. At this point in time, that is 
obviously an open discussion. Imagine for a moment that there 
was a uniform rating system. Then it would be easy to consider 
that you would have an oversight board or an advisory board 
that would be contributing to the creation of the categories, 
as well as supervising the application of the categories.
    It seems obvious that what parents are calling for, that 
what researchers are calling for, is more descriptive 
information, rather than more interpretive or evaluative or 
subjective information. As people have noted, there is a lot of 
disagreement about what is appropriate for children of 
different ages, and the public does not necessarily want the 
entertainment industry's perspective, what they want is 
information. If you had a descriptive rating system that, let's 
say it had four levels of violence, and in the first level, it 
was comedic violence, and in the second level, it was serious 
violence where people are threatened and harmed, in the third 
level, people are killed, and in the fourth level, people are 
killed and it is graphical or explicit portrayals.
    Now, that is something that is simple, descriptive and 
could easily be applied across media, whether it is film or 
television, and then that could easily be evaluated by an 
independent board to see that the judgments were being made 
fairly and accurately.
    Chairman Lieberman. Yes, I think you make an important 
point, which maybe we assume, but should make explicit--and you 
have--which is that you are not looking for statements that 
this is bad and this is good. You are looking for descriptive 
information about what is in the products so every parent can 
determine what he or she thinks is appropriate for their 
children. Was there any discussion among the signers of the 
letter about how this independent oversight committee would be 
formed, Dr. Rich, or was it thought that it might be formed in 
cooperation, presumably, with the entertainment industry?
    Dr. Rich. I think the general concept behind it was to try 
to bring the kind of tools public health researchers and social 
sciences bring to bear on other questions of the interface 
between society and the public health, issues of epidemiology, 
issues of sexual risk or how disease spreads, and to try to 
bring those kind of minds and those kind of constructs to a 
group of people that would represent all of the above, the 
entertainment industry, social scientists, child health 
experts, child development experts, and try to achieve the 
validity and reliability that we insist on in other public 
health and social science tools. We should try to create 
objectivity and spreading from a single entity (that is often 
currently a secret entity or an unknown entity,) to the 
consumer, to create a broader and more accountable group who 
have to stand behind those descriptors, those ratings that are 
given to the media that the parents are letting their children 
consume.
    I would hope to see that it was a cooperative arrangement 
between all of the various parties, because I think the 
ultimate goal of this is to be able to have as free and open a 
forum for expression in our society as possible, doing so by 
making it safe and helping people know what the rules of the 
road are.
    Chairman Lieberman. Thanks, Dr. Rich, thanks to all of you. 
My time is up.
    Senator Thompson.
    Senator Thompson. Thank you very much, Mr. Chairman. On the 
issue of causation, others know a lot more about this than I do 
and have followed it more closely, but it is a very confusing 
thing to me. Everyone speaks with such authority. First, we had 
the quest for the blame with regard to some of these terrible 
shootings we had. Some wanted to blame it on guns and advocacy 
of gun control, others on the media, and we seem to be getting 
these very conflicting reports as to the state of the science 
with regard to causation.
    I hear you refer to Dr. Satcher, for example, but I was 
looking at the Atlanta Journal Constitution, and it is an 
article, January 18 of this year, it says, ``Study Disputes 
Myths About Youth Violence,'' and it says, ``While some media 
reports, including a Wednesday Los Angeles Times article about 
the Surgeon General study, played up the role of the media in 
causing youth violence,'' this, of course, is the U.S. Surgeon 
General, dismissed those accounts, and they are quoting Dr. 
Satcher, ``As a risk factor for youth violence, the impact of 
media violence to date is very small, very small indeed. Some 
people may not be happy, but that is where the science is 
today, and our responsibility is to stick with the science.'' 
Which side of this is Dr. Satcher really on? That is not 
consistent with the quotation I thought I heard that you gave 
of his awhile ago.
    Mr. Kunkel. My quotation was to the U.S. Surgeon General, 
and there actually are several previous U.S. Surgeon Generals 
who have taken a much stronger stance on this than Dr. Satcher. 
However, I think really what the debate boils down to is that 
many people try to oversimplify this discussion. They try to 
think of the impact of media violence as having a direct and 
powerful, almost bullet-like impact on people, so that they see 
a particular effect. They say, well, if you see this program, 
will that make you go out and commit a crime or will that make 
you go out and kill someone? And that would almost never 
happen. There are, of course, rare instances of this and they 
are reported in the press. But that is not the primary concern 
about the influence of media violence.
    That would be like asking what is the effect of smoking one 
cigarette? There is, of course, very little or no effect from 
one cigarette. However, as you have cumulative exposure to 
cigarette smoke across years of time and thousands of 
cigarettes, you develop an increased risk of cancer. Similarly, 
with greater exposure to media violence, you develop an 
increased risk of aggressive behavior and, according to certain 
studies, certain criminal acts later in life. Now, that is a 
risk factor. Just as I am sure that you know, Senator Thompson, 
people who have smoked all their life and not contracted 
cancer, there are people who have seen violence in large 
measure over the course of their life and do not behave 
aggressively. That is because there are many factors that shape 
human behavior.
    Senator Thompson. I am not arguing the science with you, 
because I do not know.
    Mr. Kunkel. It is a risk factor.
    Senator Thompson. But I guess, when the Surgeon General 
says the impact of media violence, he is not talking about one 
exposure here, ``The impact of media violence to date is very 
small, very small indeed,'' I do not think anybody would argue 
with the commonsense proposition that a lot of things are going 
on out in society here have some affect. I think the question 
is maybe as you put it, what are we talking about? Are we 
talking about something that is primary, something that is 
substantial, or something that is very, very small?
    I looked over here in the FTC report that was issued last 
fall; there was some discussion of it in the executive summary, 
but just like in some of these global warming reports that come 
out, the executive summary is not exactly the same as the body 
of the report, and if you look over in Appendix A of the FTC 
report, it says, ``There does appear to be general agreement 
among researchers that whatever the impact of media violence, 
it likely explains a relatively small amount of the total 
variation in youthful violent behavior.''
    So, again, I am not arguing the science. I do not have the 
answer. I do not know what extent. I guess everybody would 
concede some extent, but the question is whether or not we are 
making a much stronger causation and we are representing the 
science as being somewhere that the science really is not, in 
light of both the FTC and the U.S. Surgeon General.
    Mr. Kunkel. There is no doubt that some people exaggerate 
the research in this realm.
    Senator Thompson. My question was whether or not you were 
one of those people.
    Mr. Kunkel. I do not believe so, sir, and I believe that 
just as human behavior is influenced by so many factors, I 
believe that the comment that you were referring to from the 
Surgeon General, Satcher, reflects is that parents are of 
critical importance, peer groups are also of critical 
importance, and that relative to those factors in terms of 
predicting violent behavior, media falls below those, and the 
Surgeon General's report on youth violence reflects that. The 
Surgeon General Satcher's report also reflects that media is a 
risk vector and it is a contributing factor to aggressive 
behavior, and our concern about this topic area is not that it 
is the most potent influence on youth behavior, but it is one 
of the most pervasive factors.
    Children are watching media every day. They spend more time 
exposed to media than they do attending school by the time they 
graduate from high school. Certainly you would agree that 
education has an impact on young lives.
    Senator Thompson. Certainly.
    Mr. Kunkel. And so I do not think you can discount this.
    Senator Thompson. The issue here is one of causation. It 
has to do with purported science, causation with regard to 
violence, not that it has an--nobody could argue that this 
stuff has an overall degrading, debilitating effect on society.
    Mr. Kunkel. Of course.
    Senator Thompson. I do not think there is any question 
about a lot of it.
    Mr. Kunkel. Of course.
    Senator Thompson. But I think as we get into this, we need 
to make sure that we are dealing with the most accurate science 
that we can from the people and the entities who have some 
responsibility in this area. Thank you very much.
    Ms. Smit, thank you very much for your testimony. Tell me a 
little bit more about The Lion and the Lamb Project, your 
organization, how it came about and what you do and what your 
goals are in your organization. It sounds like you do some very 
good work.
    Ms. Smit. Well, actually, I am just a member of The Lion 
and Lamb Project. I just took a workshop and I like to go on 
their web site. Daphne White, who is the director of The Lion 
and Lamb Project, would probably be better to talk about it, 
but it is a parent advocacy group. If anybody goes on the web 
site, there are articles about the marketing of entertainment 
to children. Talk about issues, for example, like these Gameboy 
games which are rated E, but the same game is also a mature 
game. So if it is totally different for children, then why are 
they calling it by the same name? Obviously, if my 8-year-old 
played this E-rated game, he would want to go play the mature 
game soon enough.
    Senator Thompson. Are there advisories that are put out to 
members of The Lion and Lamb Project?
    Ms. Smit. Yes.
    Senator Thompson. Is there an organization in every State, 
for example, do you know?
    Ms. Smit. There are people that get trained to be trainers, 
to do parent workshops, and it is a slowly growing 
organization. Like all non-profits, it is sorely lacking in 
funds.
    Senator Thompson. Do you know whether or not--have you been 
able to attract some private industry corporate support, 
contributions and so forth, to help you?
    Ms. Smit. I am afraid I cannot answer those questions, 
because I really am just a member, but Daphne White is the 
person to contact, and I would encourage people to go on the 
lionlamb.org site to see what is on there. They do send out E-
mails to people who become members, alerting them to all kinds 
of issues in this area and encouraging parents to talk to other 
parents and just make them more aware.
    I really was not as aware of all of this when my children 
were younger, but as they get older I became more aware. I 
mean, I see my kids every day and their friends just running 
around the house, saying, ``I'm going to stab you, I'm going to 
shoot you,'' and it is coming from watching this stuff. I am no 
scientist, but I just really know that there is a connection 
when I see bad behavior in our school. I think the World 
Wrestling Federation has a big effect on young boys.
    Senator Thompson. Well, it sounds like you are doing what 
you can, not only to be a good parent, but to exercise your 
rights to make it known what you think about all of this and to 
join together with other people to have some influence in this 
regard, and more power to you. Thank you for being here today.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. I apologize to our 
witnesses and to my colleagues for being late. This is the 
third hearing I have been to, and I know we are all busy. I 
appreciate you being here. Sometimes when we have a panel like 
this, I like to ask where you agree and where you disagree. I 
am not going to do that. I am tempted to, and if I have time, I 
am going to ask that question, where you agree and where you 
disagree, but what I would really like to ask you is what 
role--and you may have said this already, and I apologize if 
you have--what role is there in these issues for the Congress? 
What is the appropriate role for us to take in these regards? 
Let's just start with Mr. Kunkel.
    Mr. Kunkel. I would say that the appropriate role is to do 
exactly what you are doing today, and that is to provide a 
public forum for the discussion of these issues which, given 
the First Amendment, seem best considered or best addressed by 
self-regulatory action on the part of the media industries. I 
think that there is a need for parents' voices, for advocacy 
group voices, to be heard and to have an opportunity to meet 
with leaders of the entertainment industries, and a forum like 
this accomplishes just that purpose.
    Senator Carper. You may have said this already. Do you have 
children of your own? I have two boys, 11 and 12.
    Mr. Kunkel. I actually have five godchildren between the 
ages of 2 and 6, but no natural children.
    Senator Carper. Thank you. Mr. Pilon.
    Mr. Pilon. Well, as the odd man out on this panel, let me 
say that I think that the role of government in this is 
relatively limited. I think that the evidence that has been 
cited is characterized most strikingly by Professor Kunkel, 
when he said that violence in the media contributes to violence 
in the world. That is a scientific inference that is so weak as 
to be all but useless. I recall reviewing this literature as a 
graduate student and I went away singularly unconvinced that 
there was any serious correlation you could draw between 
watching this stuff and the human action. And, in fact, I went 
away saying that not only is there no serious inference to be 
drawn, but rather it denigrates us as human beings capable of 
choice. Indeed, it is only because we are capable of choice 
that we can be held responsible, and we cannot point to the 
video game and say, ``I did it because the video game made me 
do it.''
    Speaking from my own personal experience, yes, I have 
children. I have a 16-year-old son who has been playing these 
shoot-'em-up video games since he was 7. He is on his way to 
becoming an Eagle Scout. I have no reservation about his 
ability to distinguish between what he sees on that screen and 
what goes on in the real world. I think much of this has been 
overstated and it is nowhere better characterized than by 
Professor Kunkel's remark that this ``contributes to.'' Lots of 
things ``contribute to.'' Eating too much sugar can 
``contribute to'' violence.
    I would add also that the idea that you can achieve 
precision in these ratings, of the kind that you get on a food 
label that says 11 grams of saturated fat, is a chimera. You 
will never get anything close to that in this. We are talking 
about subjective judgments. We are talking about disagreements, 
even on this panel, about how ``Saving Private Ryan'' or 
``Sophie's Choice'' or many other wonderful films are 
characterized because we have got this artificial grid relating 
to sex and violence. This is the kind of thing that is 
inherently subjective. To look for food label kind of labeling 
just simply misses the point about it.
    Now, with respect to the role of government, here again I 
would suggest that if this is the kind of thing that is indeed 
worthy, then the National Institute can find plenty of support 
in the private sector to underwrite this type of thing. I 
submit, though, that when you press their program you will find 
that it does not stand up because the idea of setting up a 
uniform standard for all of these media, and being able to put 
out consistent ratings for the 100,000 or more programs that 
are put out each year, is a pipe dream. It simply will not 
happen. You will have this Committee and you will still have 
disagreements.
    Senator Carper. Mr. Pilon, I am going to ask you to hold it 
right there. I want to hear from the other witnesses, as well. 
Thank you.
    Mr. Kunkel, I am sorry. I missed your thin remark.
    Go ahead, Dr. Rich.
    Dr. Rich. I agree with Dr. Kunkel that this is the first 
step of what Congress' role is in this. Congress has functions 
beyond legislation. It is also leadership. It is a voice. You 
are our voice. You represent us, and you speak loudly, and the 
fact that you are paying attention to this issue, that you are 
not being distracted by other arguments, and saying we, the 
people, are concerned about this is the most important function 
that Congress can serve. You can, by your voice and by your 
leadership, lead all of us, all of our diverse voices, 
hopefully, to a better system.
    While this system is a good attempt and I think that the 
entertainment industry deserves credit for creating it, it is 
not yet perfect, and so you can lead us toward a better 
solution for that.
    Senator Carper. Thank you. Ms. Smit.
    Ms. Smit. As a mother, I agree with both Dr. Kunkel and Dr. 
Rich. I see this a little bit like the cigarette industry was 
many years ago. I mean, the issues are much more complex. But I 
think the same thing with the Joe Camel ads, where cigarettes 
were being marketed to kids. I would like to see some steps 
made to stop marketing these violent video games and sex to 
kids, and I guess I would like to see what we are doing now. 
The fact that Congress is interested in this issue, makes a 
parent really happy that this is being looked at seriously, and 
I hope that everybody will come together, both on the corporate 
side and governmental side, to do something for our kids, 
because I see that all of you are concerned up there, but the 
question is how do we go about doing it? But I am very happy as 
a mother that Congress is looking at this.
    Senator Carper. Mr. Chairman, do I have some more time?
    Chairman Lieberman. Yes, you do. I am sorry. There is a 
timer in front of you. You have exactly 3 minutes and 27 
seconds, more or less.
    Senator Carper. How much time did I have to start with, 10 
minutes?
    Chairman Lieberman. Yes, 10 minutes.
    Senator Carper. I was going to say this is the slowest 5 
minutes I have seen for awhile. I would like to go back to Dr. 
Kunkel, if I could. We are familiar in our own family with the 
ratings that exist for movies and follow those pretty closely. 
My boys are into popular music--so is their dad--but I am just 
not familiar with the warning system that is in place for 
music, as a parent. The CDs that we buy just do not have those 
kinds of warnings, or if they do, I have just not seen them. 
Our boys like to play video games. I am not aware of the 
warning system that exists there. I do not know if they are 
alike, if they are dissimilar. I do not know if there is a need 
for more commonality, but we all understand, I think pretty 
well, the movie rating system, but not so much the other rating 
systems for video and music and maybe television. Do we need 
something that is more uniform?
    Mr. Kunkel. Well, first of all, I would say that you fit 
perfectly the profile of an average parent, because I think 
that is what most parents in this country would say, that they 
are aware that there are some labels being thrown on different 
types of media products, but they are having trouble making 
sense of them because of the inconsistency or sometimes 
incompatibility across media. You apparently are not aware, but 
there are no rating categories that are applied to music or 
CDs. There is merely a warning label that says parental 
advisory, that is put on material that someone in the company, 
using no criteria that are publicly available, decides is 
sensitive or might be inappropriate for use.
    In contrast, there are somewhat vague standards for the 
motion picture ratings, such that you can see that there will 
be comments such as serious violence would be in one category 
or graphic or explicit violence in another, but those seem to 
vary from application to application. So I think there is a lot 
of confusion on the part of parents who want to use the 
information, but simply cannot disentangle all of the different 
ones, and what we are suggesting here today is the need for 
some greater clarity, some greater consistency in applying the 
standards, making the public aware of the standards that are 
being used to rate material, and also for the media industries 
to seriously consider uniform ratings that would then allow 
parents to easily figure things out because the criteria could 
be the same across all media.
    Senator Carper. I would ask each of the other witnesses to 
just take 30 seconds and respond to what Dr. Kunkel said.
    Mr. Pilon.
    Mr. Pilon. If there is indeed a market for this, I see no 
reason why The Motion Picture Association of America, the video 
game producers and so forth, would not respond to it. It seems 
to me that this is perhaps a mission in search of a market, and 
it may be that it is more difficult than people have given 
credit for it being.
    Senator Carper. Thank you. Dr. Rich.
    Dr. Rich. As a pediatrician and as a parent, my response is 
that I am constantly in search of information that will allow 
my own children and the children that I care for to make 
informed and thoughtful decisions about a variety of risk 
factors in their lives. Research has established that media can 
be a risk factor to their health, to their physical and mental 
health. Therefore, I would search for some means, hopefully 
simple and direct and one that you and the other average 
parents out there can use in an easy and direct way, to make 
those risk-benefit judgments that a parent makes every day on 
behalf of their children.
    Senator Carper. Thank you. Ms. Smit.
    Ms. Smit. I think that a uniform rating system would be 
really helpful to parents. I am more educated than probably 
most parents, and I think that even though it would be 
difficult, it would be very helpful. I think that what has to 
go along with it, though, is educating the general public about 
it, just as maybe 20 years ago people were not aware of which 
things that you ingested--how they would harm you. I think that 
a lot of parents, if I look at some of the parents in my 
community, just really need to be educated about that, and 
there needs to be massive education, so that everybody knows, 
because most parents go on the opinion a friend that they feel 
has the same values, and you know who those people are, and you 
know which people are more sensitive about which issues, and 
you ask them, ``Well, would you let your daughter see it?'' or 
``What did you think about it?'' That is why I think it has to 
be a massive education effort, because a lot of parents rate 
entertainment based on what their friends and the people they 
trust say.
    I think everybody needs to know that saturated fat is bad 
for you, let's say, and everybody needs to know what levels of 
violence are bad, but this is why it is so difficult, because 
everybody has different values and this goes to people's values 
and beliefs, which are the strongest things in people's lives. 
And every parent is different. Parents aren't going to have the 
exact same opinion about entertainment products.
    Senator Carper. Again, our thanks to each of you for being 
here, and, Mr. Chairman, my thanks to you for holding these 
hearings in the first place.
    Chairman Lieberman. Thank you, Senator Carper. Thanks for 
being here.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Mr. Chairman, for this 
hearing. I appreciate the opportunity. I am sorry I had to step 
out for a moment, and my questioning will be brief, because I 
know you have other panels to consider. As I listened to the 
testimony and read some of the testimony that we will hear very 
shortly, I tried to determine whether there were some things 
that we could agree on.
    There is a difference of opinion, Dr. Rich, for example, on 
your premise that you say is supported by major health 
organizations, that there is a causal connection between media 
violence and aggressive behavior, which I believe--I am not 
sure how much of a connection there is or how great of an 
impact it is, but I do believe there is a connection. I do not 
believe you can be desensitized to this kind of exposure, 
particularly as a young person. I think that it has an impact 
on you. There is some agreement. Mr. Baldwin will later say 
that he thinks there may be some connection to it. He has other 
things to say, which are equally important. There are others--
Ms. Rosen--who may disagree in her testimony. But it seems that 
that premise is something that at least leads us to this 
hearing.
    If there is a connection, what should we do to protect our 
children? The second thing, though, is there wide disagreement? 
That is the question that was posed, or at least a statement by 
the Chairman in his opening remarks. A Gallup survey found 74 
percent of parents said movie, music, and television ratings 
were inadequate. Later on, Mr. Valenti is going to tell us that 
81 percent thought that these same rating systems for movies 
were very useful. So there seems to be a real difference of 
opinion there.
    I will have to tell you--maybe it reflects the fact that my 
children are grown and I now have a 5-year-old grandson, I am 
reintroducing myself to some of these things--I think they are 
unintelligible. I do not know how you follow it. I have no idea 
what they are flashing on the screen in television. Maybe I do 
not follow it as closely as I would have if I had kids sitting 
around me. But it should be simpler, shouldn't it? Shouldn't we 
be in a system where a parent really kind of knows going in, A, 
B, C, D, F, or something that is fundamental? Right now, the 
gradations and the definitions are so hard to follow, and a lot 
of it is in the eye of the beholder. Most of these ratings are 
being done by the industries themselves and by people in the 
industry. Well, self-policing is important, because who wants 
the big hand of government making this call? But when you get 
into self-policing, it is a matter of definition and taste, and 
it is very individualized.
    Just the other night, I was stuck in O'Hare, which is part 
of my life, and I went to a CD store. I went in there--I was 
just browsing through there--and I looked in the New Age 
section in the CD store, and they had two CDs entitled ``The 
Very Best of Perry Como,'' and I thought to myself some clerk 
along the way here--and they were all pretty young--probably 
does not have a clue who Perry Como was and thinks he is a New 
Age musician.
    Senator Carper. Perry Como would be pleased to know that he 
is thought of as a New Age musician.
    Senator Durbin. Let me ask you about this, Dr. Rich. The 
premise here, the connection, you believe that it is clear, 
although I guess there is some question about impact on 
individual kids.
    Dr. Rich. I see it both in a wide variety of research and I 
see it every day in my clinical examination room. I do think 
there is an effect. I do not think it is an on-off switch. I 
think that in the search for causality, we get seduced into 
saying that if you do this, then this will occur. The reality 
in all of life is that there are gradations of risk, and, in 
fact, if one were to say you cannot prove causality, you could 
not prove causality that having sex causes pregnancy, because 
it does not happen every time. What we look at is variance. We 
look at the risk inherent in it, and the risk inherent in 
exposure to media violence is approximately 14 percent for 
serious violence as an outcome.
    By contrast, the risk of smoking cigarettes has been 
associated with a variance that explained between 13 percent 
and 22 percent of lung cancer. Everybody that smokes does not 
get lung cancer. So what I am searching for, both as a 
pediatrician and as a parent, is a tool, a tool that I can use, 
that I can share with people without spending hours and hours 
or a weekend seminar to teach them how to use it, that they can 
use to decide how to care for their children best. I tell them 
put on the child's seat belt. Bicycle helmets are necessary. We 
do this all the time. This is a much more complex and difficult 
situation on a variety of levels, but I think it needs to be 
simplified, and I think the easiest and most direct way to 
approach it is this content-based approach, because that allows 
the individual parents to respond to what is there, rather than 
what someone tells them is the appropriateness of what is 
there.
    Senator Durbin. So, Mr. Pilon, if it is kind of a consensus 
opinion among medical experts that there is a connection 
between media violence and aggressive behavior, why should not 
the government be part of giving parents that information so 
they can make the right choice for their kids?
    Mr. Pilon. Because we have a Constitution.
    Senator Durbin. You think the Constitution prohibits even 
self-policing of these entities?
    Mr. Pilon. Oh, of course not, but you said why shouldn't 
the government be involved. That is not self-policing.
    Senator Durbin. If the government is going to suggest that 
we have, for example, categories that parents can understand as 
part of this hearing, do you think that oversteps the 
constitutional boundaries?
    Mr. Pilon. So now we are moving in the direction of this 
public-private partnership; is that the idea? The government is 
going to suggest the categories?
    Senator Durbin. Do you find that frightening?
    Mr. Pilon. I find that a slippery slope, absolutely, Mr. 
Durbin. I have been around this town for a little while.
    Senator Durbin. I am new here, but thank you. [Laughter.]
    Mr. Pilon. Well, I know, and I was here before--when you 
were back out in Illinois. In any event, no, I think that there 
is not this consensus that you referred to, and indeed, as I 
said, what you do find is a very weak inference. Indeed, I 
would throw this data out before the Committee: We are told 
that there is an increase in violence in the media, and there 
is an increasing amount of media because cable is expanding the 
media outlets every day, the movies are getting more violent, 
and yet we know that over the last several years youth violence 
has been going down. Square those two, if you will. That seems 
to fly right in the face of the hypothesis of these hearings, 
and so I think that we ought to check the science a little more 
carefully and, in fact, check precisely what we mean by 
scientific inference.
    Again, I repair to the language that was used by Mr. 
Kunkel, ``It contributes to.'' As several of the panelists have 
said, lots of things contribute to violence, and the Surgeon 
General put video, media, etc., way down on the list of those 
contributory factors. Therefore, I come back to my final 
conclusion, that this may be a problem of whatever magnitude in 
search of a solution, and what concerns me most, in search of a 
government solution.
    Senator Durbin. There are moments in politics when the left 
and right come together, and I can see that.
    Mr. Pilon. Yes, we find that often at the Cato Institute.
    Senator Durbin. I am not going to touch that one. 
[Laughter.]
    I will just say that no one would disagree with your 
premise. In fact, Mr. Baldwin, I think makes it very clear in 
his statement, that there are many factors that lead to youth 
violence and this may be a contributing factor. I think that is 
what Dr. Rich is saying. I hope I am not putting words in your 
mouth.
    Ms. Smit, thank you for being here. As I listen to you, I 
thought you represent a lot of people that I represent in the 
State of Illinois, in just trying to find the right thing to do 
to raise those kids in the right way, and when they turn out 
right, it is the greatest reward in life.
    Thank you.
    Chairman Lieberman. Thanks very much, Senator Durbin.
    Thanks to the members of the panel. I think you have set 
down a challenge for us. You have spoken--certainly, Ms. Smit, 
you have--from the common concerns that are widely held around 
the country, and I think the letter that Professor Kunkel and 
Dr. Rich signed also challenges the industry and all of us to 
see what we can do to better prepare to help parents raise 
their kids, and in that spirit we thank you and we look forward 
to the next panel. Thank you very much.
    Ms. Smit. Could we have one minute to try our video again?
    Chairman Lieberman. OK. Let's try it again.
    Ms. Smit. It is the technology of this fancy TV, and if it 
does not work this time----
    Chairman Lieberman. Is his name Adam? I find it 
disconcerting that, playing this game, he is wearing a Cal 
Ripken shirt.
    Senator Thompson. He has got to please the home crowd.
    Chairman Lieberman. Well, he is our hero.
    [Pause.]
    Chairman Lieberman. No-go? OK.
    Ms. Smit. Sorry. Thank you.
    Chairman Lieberman. Point made, I think, though. Let us 
call the next panel: William Baldwin, President of The Creative 
Coalition; Douglas McMillon, Senior VP and General Merchandise 
Manager of Wal-Mart Stores; Hilary Rosen, President and CEO of 
the Recording Industry Association of America; Jack Valenti, 
President and CEO, The Motion Picture Association of America; 
and Doug Lowenstein, President, Interactive Digital Software 
Association. Thanks to all of you.
    See if you can find your seats as quickly as you can. We 
have been notified that there is a vote that will occur 
sometime in the next 10 to 20 minutes on the Senate floor, so 
we will have to recess for a period of time, and we will try 
very hard to get as many of the witnesses in as we can before 
that time.
    Let's begin with William Baldwin, obviously an actor, and 
this morning here as president of The Creative Coalition.

   TESTIMONY OF WILLIAM BALDWIN,\1\ PRESIDENT, THE CREATIVE 
                           COALITION

    Mr. Baldwin. Mr. Chairman and Members of the Committee, 
thank you for inviting me to appear at this important hearing. 
I am a parent, an actor and president of The Creative 
Coalition. I am not here speaking on behalf of the 
entertainment industry, nor do my comments reflect the opinions 
of all the members of my organization, The Creative Coalition. 
Senator Lieberman and I have had many discussions about the 
role of media in our culture, its effects on children, and ways 
in which we can help parents navigate the overwhelming barrage 
of words, images, sounds, and ideas that bombard our children 
daily.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baldwin appears in the Appendix 
on page 97.
---------------------------------------------------------------------------
    Although we agree that there is a problem, we do not agree 
on the specific definition of the problem and we are even 
further apart on potential solutions. Despite this, I consider 
myself a partner in our collective effort to empower parents. 
In recent years, there have been many welcome changes in the 
approach of the arts and entertainment industries to the issue 
of violent and sexual content, and the rating systems that we 
are discussing today are among the most significant. But let's 
be clear; even if we devised the most perfect rating system 
imaginable, we would be no closer to solving the real social 
problems of this country.
    We were all horrified by the destructive acts that have so 
disturbed the Nation in recent years, but in spite of all the 
rhetoric to the contrary, the real issue is not media violence, 
it is youth violence, which is in decline. The core issues for 
youth violence are drug and alcohol abuse, divorce and family 
breakdown, physical and sexual abuse, neglect, poverty, mental 
illness, and easy access to firearms; and, yes, media may play 
an indirect role by contributing in the form of aggression, 
desensitizing or overstimulation.
    But the problem is far greater than violent movies or video 
games, and the ratings we use to control access to violent and 
sexual content are not going to solve the social ills 
afflicting children today. Printing warnings on a CD are not 
going to raise anyone's children or make them go to school, or 
keep them away from drugs. A sticker on a video game is not a 
bandage for a broken family. Ratings are merely one tool that 
parents can use to identify entertainment that matches their 
own values. They are not a substitute for those values, nor can 
they instill values if they do not exist.
    Ratings are extraordinarily valuable, but they can be made 
stronger and more informative. No one could argue that the 
rating system serves no purpose and no one could argue that the 
current system cannot be improved. In my view, any system that 
indiscriminately lumps ``Schindler's List,'' ``Billy Elliott,'' 
and ``Saving Private Ryan'' in the same category as a slasher 
movie clearly is ripe for reform. As a parent, I want to know 
why a movie received a particular rating so I can intelligently 
apply my own judgment and values. Descriptive labels that let 
parents know what caused a rating, whether it is language, sex, 
or violent content, would make ratings more credible; and, as 
you will hear from Mr. Valenti, this is precisely the course of 
action that the industry is taking. But no matter what ratings 
system is adopted, it must be voluntary.
    Congressional oversight, no matter how well-intentioned, 
should not impose legislation that would infringe upon 
constitutionally-protected expression. Government sanctions of 
any kind to enforce subjective standards of accuracy or 
appropriateness are a clear violation of the First Amendment. 
There has been much discussion about mandating a so-called 
universal rating system that uses the same terminology and 
standards of judgment, no matter which medium is being rated. 
Many apparently feel that parents are easily confused, even 
though, ironically, the FTC has determined that parents are 
overwhelmingly familiar and satisfied with current systems.
    We believe that whatever confusion exists should be fixed 
within each medium's particular system and not by creating a 
one-size-fits-all concept. A universal system assumes that all 
media are the same and affect audiences in the same way, but 
artistic mediums have been proven to affect audiences 
differently. Visual media, like movies and television, are 
intrinsically different than media that rely on more subjective 
interpretations, like music. As an aside, I have read novels. 
For example, I have read the novel ``Hunt for Red October.'' I 
saw the film ``Hunt for Red October'' twice, because Senator 
Lieberman--I am sorry--Senator Thompson and my brother, Alec, 
both starred in the film.
    Chairman Lieberman. That was in my fantasy world, that I 
starred in that film. [Laughter.]
    Senator Thompson. You are being generous. We both starred; 
right? [Laughter.]
    Mr. Baldwin. I read the novel. I saw the film, not only 
twice because my brother starred in the film, but it was an 
excellent film. Six months later, somebody approached me on the 
street and said, ``Hey, I loved your brother in that film. He 
was the greatest Jack Ryan. I loved that part about such-and-
such,'' and I just agreed. I said, ``Oh, thanks a lot. I will 
tell him.'' I walked away and I could not remember, not only 
that scene, but I could not remember a lot of what the novel 
was about. Two days later, I am driving in a car, and in a 
week's span, I hear ``Paradise by the Dashboard Light,'' by 
Meatloaf, I hear ``25-or-6-to-4:00'' by Chicago, and I hear 
``In the Mood,'' by Glenn Miller; all three of them, I had not 
heard in 15 years. I knew every movement of the melody and I 
knew every word of the lyrics. Clearly, music affects the brain 
differently than reading a book or seeing a film, and that is 
one of the reasons--it is one of the justifications for why I 
do not think a universal rating system can apply to all forms 
of media, because they affect the brain differently.
    So a single standard applied across all media would never 
serve parents effectively, and if we are talking about age-
appropriate ratings for all media, should we include books, 
Broadway musicals, paintings and the evening news? Clearly, 
though, within the context of self-regulation, there is room 
for improvement. We should continue to make ratings system 
stronger and more informative. Parents are understandably 
concerned as standards by which films are rated appear to have 
eased over time. For example, some films that were rated R 
years ago today might be given a PG-13 rating. The credibility 
of self-regulation requires consistency, and the industry is 
working to find ways to improve in this area.
    Another area in which the entertainment industry can 
further improve its self-regulatory mechanisms is compliance at 
the retail level. The FTC report found that movie theaters have 
the best rating enforcement of any retail industry surveyed. 
Despite this, compliance with the rating system is an area that 
can still be improved, and theater owners have pledged to do 
so. We must work to find incentives for retailers to comply 
with the rating system in ways that are not cost prohibitive. 
Our organization is proud of recent industry efforts to improve 
marketing practices, but pressure must continue to make sure 
all media is made for and marketed to appropriate audiences. 
But we also must be vigilant to guard the right to market to 
adults, and more important, the right of adults to receive this 
information.
    I would like to suggest one more area that is rarely 
discussed. I believe that we must not only give parents the 
tools they need to help guide their children, but we also must 
give children the tools they need to interpret the media 
onslaught. We need to institute media literacy programs to help 
children understand and process with a more critical eye the 
vast amount of information they receive from all forms of 
media, from films to television commercials to Dan Rather to 
the evening news. Children need to develop inner filters that 
help them make sense of what they are digesting. The more they 
understand how and why media is created, the more they will 
benefit from the media that they are ingesting.
    The Creative Coalition is eager to work with other 
interested parties to develop media literacy curricula that can 
be used in schools nationwide. I thank the Committee for its 
concern about our children's future. Solutions should not come 
in the form of government regulation or any direct or indirect 
form of censorship. In the end, voluntary self-regulation is 
the only constitutionally-acceptable way to address this issue. 
Self-regulation has been very successful. We now have a rating 
system for the television industry, the video industry, and a 
parental advisory for the recording industry. Mr. Valenti has 
implemented new guidelines that entertainment industry 
executives have not only voluntarily and enthusiastically 
embraced, but some have offered to take several of these 
recommendations even further.
    Is the current system perfect? No. Is there room for 
improvement? Definitely. We can strengthen the rating system 
and the parental advisory by making them even more informative. 
We can enhance enforcement. We can incorporate media literacy 
into our schools. In dealing with the issue of youth violence 
there clearly is a seat at the table for the entertainment 
industry, with legislators, educators, law enforcement, 
advocacy groups and other relevant constituencies. But any 
effort will fail if parents are not doing their job. The 
entertainment industry can help parents, they cannot be 
parents.
    Last, I wanted to say that when protecting freedom comes in 
direct conflict with protecting children, dramatic results 
should not be expected overnight. It needs to be done in an 
incremental and thoughtfully considered manner, and myself and 
The Creative Coalition all look forward to working with you to 
find common ground that protects both freedom of expression and 
the need to provide tools to empower parents.
    Chairman Lieberman. Thank you, Mr. Baldwin.
    Mr. McMillon, thanks for being here. I must say to you, 
just to echo what Senator Thompson said, that in the 8 years I 
have been involved in this particular topic, there have been 
moments of great frustration and disappointment, and there have 
been moments when I felt really a sense of accomplishment and 
appreciation, and I think Wal-Mart Stores has been exemplary, 
really, continuing extraordinary acts of good citizenship in 
the role that you played as retailers in applying your own set 
of standards in the interest of the families that shop at Wal-
Mart, as you market entertainment products and do so based on 
the rating systems, such as they are. So I am delighted that 
you are here. I thank you and I look forward to your testimony.

   TESTIMONY OF DOUG McMILLON,\1\ SENIOR VICE PRESIDENT AND 
       GENERAL MERCHANDISE MANAGER, WAL-MART STORES, INC.

    Mr. McMillon. Thank you, Mr. Chairman. I am proud of the 
company that I work for and appreciate the opportunity to be 
here today. At Wal-Mart, we are a customer-driven company. Our 
customers are the primary force behind the decisions that we 
make. We aspire to be an important part of our communities and 
provide products and services that raise the standard of living 
for our customers. Consistent with that aspiration, Wal-Mart 
attempts to sell entertainment products in a way that allows 
our customers to make informed decisions and to exclude from 
our shelves merchandise that they may find objectionable due to 
its sexually explicit or extremely violent nature.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McMillon appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    The challenges we face are in our ability to first help the 
customers understand what it is that they are buying, and 
second to determine which products they may find objectionable, 
either before or in some cases after we have made it available 
for sale. At times, this is harder than it may sound, due to 
the subjective nature of these decisions. In the case of 
movies, we use The Motion Picture Association ratings. We do 
carry R-rated movies, which our buyer selects on a title-by-
title basis. Our cashiers are prompted at registers to verify 
that the purchaser is 17 or older, and we are involved in an 
ongoing training effort to ensure that our more than 120,000 
cashiers all understand our policy of age verification.
    In the case of video games and computer software, we use 
the ESRB ratings. We do not carry adults-only titles and we 
register prompt for age verification on M-rated titles. In 
addition to register prompting, we have also implemented in-
store signing, print advertising, and associate training to 
explain the ESRB rating system. In the case of music, we do not 
have a rating system to follow. We do not currently carry 
parental advisory stickered music. We do carry edited versions 
of some parental advisory music. I want to stress here that 
edited does not mean clean. It means some portions of the music 
have been removed or changed. There may still be some 
objectionable material, and this is an area where we feel we 
may be contributing to our customers' misunderstanding.
    We do not age-restrict the sale of any music products. We 
simply do not know where to draw that line. From our 
perspective, a standardized rating system for music by the 
industry would help our customers make a more informed 
purchasing decision. The Committee has asked that we address 
the proposal from the National Institute on Media and the 
Family. They propose that media ratings be more accurate, even 
to the point of establishing an independent ratings oversight 
committee and a universal media rating system. We share their 
concern that rating systems accurately and consistently 
identify sensitive material. We want our customers to be able 
to make informed decisions regarding the entertainment products 
that they purchase. While we obviously would be supportive of 
continued improvements in media rating systems, Wal-Mart and 
other members of the retail community have voluntarily made 
substantial investments of time and resources to ensure that 
both our associates and our customers are fully informed of 
existing rating standards; for example, the rating system for 
movies first initiated in 1968 and generally has been effective 
in establishing sufficient levels of consumer familiarity with 
movie content.
    Accordingly, any proposals to make media ratings more 
accurate should build upon this current level of familiarity. 
With respect to the notion of an independent ratings oversight 
committee, there are serious concerns over whether such a body 
would interfere unduly with the consumer choice and discretion 
in the purchase of constitutionally-protected free speech. 
These concerns would be compounded by the fact that Wal-Mart 
and other retailers have already demonstrated that commitment 
to enforce and comply fully with voluntary industry standards. 
Accordingly, we feel that the formation of an independent 
regulatory body would at this point be premature and should be 
considered only after the related constitutional issues are 
fully examined.
    Finally, it has been proposed that a universal rating 
system be established for purposes of simplification. Prior to 
making a recommendation regarding such a system, we would want 
input from our customers, and we simply have not asked them. In 
conclusion, while we strive to use our best judgment on what we 
carry and work hard to restrict the sale of certain products to 
those under the age of 17, it is not possible to eliminate 
every image, word or topic that an individual might find 
objectionable. In addition, we are the first to admit that our 
systems and training, good as they are, are not infallible. We 
want our customers to make informed decisions and we want them 
to feel that we are handling entertainment products in an 
appropriate manner.
    Thank you.
    Chairman Lieberman. Thank you, Mr. McMillon. Again, that is 
very impressive testimony. And obviously you are doing this; 
government is not coercing or even suggesting in any way that 
you do this. You have done this just as an act of your own 
judgment about what is best. And it is obvious, in your case, 
because of the significance of Wal-Mart Stores in marketing in 
the United States, you have had an effect, I think, on content 
in some of the entertainment products that you have described. 
In other words, if you are not going to be able to be sold at 
Wal-Mart because of a particular rating that you get, then 
that, I think, will begin to affect the behavior, and that is 
the way it ought to happen, out in the private sector. I thank 
you.
    Next is Hilary Rosen, President and CEO of the Recording 
Industry Association of America.

  TESTIMONY OF HILARY ROSEN,\1\ PRESIDENT AND CEO, RECORDING 
                INDUSTRY ASSOCIATION OF AMERICA

    Ms. Rosen. Good morning, Mr. Chairman, Members of the 
Committee. Thank you for having me here. I am here to discuss 
the recording industry's parental advisory program. I am also 
here as a parent, a citizen, as a member of the music community 
who has worked on this difficult subject for 15 years. But my 
history does not go back as far as the criticisms of music and 
popular culture do. That has been a subject of public opinion 
and government scrutiny for over 70 years, since Duke 
Ellington's song, ``The Mooch,'' was subject to protest because 
of fears it would inspire rape.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rosen appears in the Appendix on 
page 106.
---------------------------------------------------------------------------
    It will not end with today's hearing, and perhaps that is 
as it should be, for music is so often identified with youth 
rebellion and generational misunderstanding that simply the 
dialogue about the subject has the potential to build bridges, 
if that is the goal. Too often, the goal, however, is to cast 
blame and intimidate the creative community, and please know 
this community has quite strong feelings about this subject.
    Chairman Lieberman. I have noticed.
    Ms. Rosen. At the risk of cutting short my own statement, I 
am going to read a few sentences from the statement of Russell 
Simmons, the chairman of the Hip Hop Summit Action Network, who 
requested to testify today, and ask that his full statement be 
a part of the record, Mr. Chairman.
    Chairman Lieberman. Let me say I will be happy to put it in 
as a part of the record, and I regretted that we could not have 
Mr. Simmons testify. I appreciate that you are going to read 
some from it. I will not take this away from your time. There 
just ended up being too many witnesses to add more, but if we 
come back to the subject, I will be glad to give Mr. Simmons 
and others the chance to come in and testify. Please go ahead.
    Ms. Rosen. Thank you.
    ``I regret that we are not able to testify, because many of 
us in the Hip Hop community feel these hearings are really 
about us, and it would be better, in our view, to hear from us 
and speak directly to us before judgment is passed. Although we 
know the harsh underlying social realities that some of our 
music exposes have not changed much in our communities, we are 
committed to speaking the truth. We believe we must continue to 
tell the truth about the street, if that is what we know, and 
we must tell the truth about God, if that is who we have found. 
Part of telling the truth is making sure that you know and talk 
more about what you know than speak or do music to appease 
those who are in power. Hip Hop represents truth-telling. What 
is offensive is any attempt by the government to define the 
expression of words and lyrics that emerge out of a culture 
that has become the soul of America. My final point is that 
often this is largely about race, and it makes some of us very 
concerned that few will publicly admit this effort to censor 
Hip Hop has deep-seated racial overtones. The Federal Trade 
Commission's report on explicit content disproportional focused 
on black artists. This report is scientifically flawed, as well 
as morally and culturally flawed, and should not be used as the 
basis for constructing a system of ratings in regard to 
music.''
    There are compelling statements in this, Mr. Chairman, 
which I am sure the Committee will appreciate hearing about.
    Chairman Lieberman. We will enter the statement in full in 
the record.
    [The prepared statement of Mr. Simmons follows:]

                 PREPARED STATEMENT OF RUSSELL SIMMONS
    My name is Russell Simmons and I am submitting this statement on 
behalf of the Hip Hop Summit Action Network and its Executive Director, 
Minister Benjamin Muhammad. I am Chairman of the Hip Hop Summit Action 
Network and I have worked in the music and entertainment industry for 
more than 25 years. Minister Benjamin is the former Executive Director 
and CEO of the NAACP and has over 35 years of experience in civil and 
human rights.
    The Hip Hop Summit Action Network is the broadest national 
coalition of Hop Hop artists, entertainment industry executives, civil 
rights and community leaders. Established this year, the mission of the 
Hip Hop Summit Action Network is to support Hip Hop and freedom, 
justice, equality and empowerment for all based on the principles of 
freedom of speech, music and art creativity, and the universality of 
humanity.
    I regret that despite our request to the Committee there I neither 
have space nor time for me to testify today. Not simply because I, both 
individually and on behalf of the Hip Hop generation have some 
important things to say about these issues, but also because many of us 
feel that these hearings are really about us, and it would be better in 
our view to hear from us and speak to us directly before you pass 
judgment and deny our fundamental rights.
    But let me start with something positive. The Hip Hop community has 
decided to take a leadership position toward the evolution of our 
artistic destiny and responsibility. We convened an historic summit 
last month in New York and we are planning others in Los Angeles and 
Miami in August to explore questions related to violence in our own 
communities, racial profiling, police brutality, representation of 
women, and the profanity of poverty, and how we can work from within 
our industry to expand and elevate the artistic presentation of our 
culture and experience.
    Although we know that the harsh underlying social realities that 
some of our music exposes have not changed much in our communities, we 
are committed to speaking the truth.
    We believe that we must continue to tell the truth about the street 
if that is what we know and we must continue to tell the truth about 
God if that is who we have found. Part of telling the truth is making 
sure that you know, and talk more about what you know than to speak or 
do music to appease those who are in power. Hip Hop represents truth 
telling, speaking the truth to ourselves and speaking the truth to 
power out of the context and condition of our community.
    The Congress of the United States should not censor free speech nor 
artistic expression. It is unconstitutional for government intrusion or 
dictation concerning ``labeling of music'' or ``rating of music'' that 
has the effect of denying free speech.
    What is offensive is any attempt by the government to deny the 
expression of words and lyrics that emerge out of a culture that has 
become the soul of America. In fact Hip Hop has now grown to become a 
global cultural and artistic phenomena. Congress should not attempt to 
legislate preferences in music, art and culture.
    My final point is that this is often largely about race. And it 
makes some of us very concerned that few will publicly admit that this 
effort to censure Hip Hop has deep seated racial overtones. Hip Hop 
emerged out of the African American experience. Eminem is a successful 
white Hip Hop artist who, power to him, has excelled and profited from 
the genre of black music. He stands on the shoulders of other 
originators of Hip Hop. The Federal Trade Commission's report on 
explicit content disproportionately focused on black Hip Hop artists. 
This report flawed scientifically as well as morally and culturally and 
should not, therefore, be used as a basis for constructing a system of 
``ratings'' in regard to music and other forms of entertainment.
    Simply put, we conclude by appealing to the Senate Committee on 
Governmental Affairs to refrain from censoring, labeling, or rating our 
music and culture in the absence of understanding and appreciation of 
our artistic work which represents the genius of our culture and talent 
of our youth. In fact, all youth of today--black, white, Latino, Asian 
and all others.
    Thank you.

    Ms. Rosen. I do believe that it is important for you today 
to know about the important initiatives that the recording 
industry is currently undertaking to give parents and consumers 
information they need to make choices for their music-buying 
family. As you know, our labels have appeared on our products 
for more than 15 years. By the measure that matters most, what 
parents say, the program is a success. According to the FTC's 
own report, 77 percent of parents are aware of the program and 
75 percent of those approve of it. The Kaiser Family Foundation 
study yesterday gave us comfort when it said that 90 percent of 
those who use the music industry's system find it useful.
    Over time, the system has evolved, most recently, last 
October. We amended our guidelines, but in a review in 
February, the FTC issued a report about the implementation of 
those guidelines and was highly critical. We deserve that 
criticism and we spent the last several months working hard to 
do better. We established an implementation task force, in 
conjunction with the retailers and our member companies. I have 
met personally with top executives of every major record 
company to review the implementation of the program, and we 
have been meeting with our retail partners, as well.
    We are working to implement recommendations formulated by 
that task force, as well as by the coalition I just referred to 
in my testimony. Last week, we announced a broad-based campaign 
that our industry is launching to improve public awareness of 
the label among educational leaders and parents in a variety of 
ways. That message must get out to parents, and we are going to 
make sure that our industry lives up to these commitments. 
However, Mr. Chairman, I have to continue to take exception to 
the FTC's most persistent criticism, and that is the erroneous 
claim that the recording industry deliberately markets material 
to children that we ourselves have already determined to be 
inappropriate. By the definition of our program, that charge is 
untrue. Our system is not an age-based program.
    It is often compared to the rating systems in place for 
television, motion pictures, and video games. But books have no 
labels or ratings, even those that contain explicit content and 
are marketed to children. Why? Because words are particularly 
subject to interpretation and imagination. Most people feel 
labeling books is a bad idea. Music is closer to books than it 
is to movies or video games nature. We label content when it is 
explicit. We provide a well-known and commercially-accepted 
logo to identify those recordings. America's parents do 
understand our system, and my written testimony outlines more 
detail about how much we have to do to make sure that everybody 
understands it. We take our duties seriously. Indeed, the 
freedom I am here to defend does confer a responsibility. We 
value our responsibility to parents and to consumers, and we 
will continue to give them tools to make decisions for their 
family. Thank you.
    Chairman Lieberman. Thank you, Ms. Rosen.
    Mr. Valenti, welcome. We look forward to your testimony.

  TESTIMONY OF JACK VALENTI,\1\ PRESIDENT AND CEO, THE MOTION 
                 PICTURE ASSOCIATION OF AMERICA

    Mr. Valenti. Thank you, Mr. Chairman, Senator Thompson, 
Senator Carper, and Senator Durbin, for having me here. I am 
going to say a brief word about movie ratings, a brief word 
about the Federal Trade Commission reports and maybe an even 
briefer word about the Media Marketing Accountability Act. So 
let me begin. Of the current members of the U.S. Senate today, 
only five were residents in that hallowed chamber when the 
movie ratings system was born November 1, 1968. In the ensuing 
almost 33 years, the movie ratings have become part of the 
daily American life.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Valenti with attachments appears 
in the Appendix on page 113.
---------------------------------------------------------------------------
    I think it is fair to say that they have been faithfully a 
part of that life. We have a 98-percent recognition factor 
among American families today. What is the objective of the 
system? It is simple: To give some advance cautionary warnings 
to parents so that parents can make their own decisions about 
what movies they want their children to see or not to see. Now, 
how do parents feel about these ratings systems? You have heard 
Dr. Pilon and others make some statements. Since 1969, the 
Opinion Research Corporation of Princeton, New Jersey, has 
conducted annual surveys. The last survey, September, 2000, 
found that 81 percent of parents with children under 13 found 
this rating system very useful to fairly useful in helping them 
guide their children's moviegoing. That is an enormous level of 
parental endorsement.
    But more importantly, last year in the summer, the Federal 
Trade Commission conducted its own independent survey, and what 
did they find? That 80 percent of parents found the rating 
system to be, ``satisfactory.'' Now, what about the accuracy of 
ratings? We have heard about this. Since the inception of the 
program November 1, 1968, the rating board has rated 16,892 
movies, 15 to 20 of which starred Senator Thompson, I am 
pleased to say. Now, it is impossible for anyone to say that 
those 16,892 movies are confirmably correct or wrong. Frankly, 
I will confess to this panel that privately, I take issue every 
now and then with the rating of a film, and I think the rating 
board might have erred. But if there are errors in the accuracy 
of a movie rating, it is a matter of a judgment call and not an 
exile of integrity.
    What movie raters have to face is they are not dealing with 
the purities of Euclid's geometric equations, the answers to 
which are always clean-shaped and precise. What movie raters, 
vexing though it is to them and to social scientists and to 
Wall Street analysts, are dealing with is the ghostly form of 
subjectivity which is barren of all Euclidian finalities. And I 
might add, as a result of that, they cannot make accurate 
judgments, totally accurate, because they are not divinely 
inspired enough to see clearly what is not clearly seen. So 
what do movie raters and social scientists, a group of whom you 
heard earlier, and Wall Street analysts do? They draw smudged 
lines. They estimate. They surmise, and they have to. Remember, 
when a Wall Street analyst cannot remember his phone number, he 
will give you an estimate.
    That is what we are dealing with in movie ratings, and we 
have to understand that. Let me say a word about the FTC 
reports. When that first report came out on September 11, 2000, 
it was critical of a number of marketing plans of some of our 
companies, and frankly I thought they were not off the mark. I 
found some of these marketing plans to be indefensible, and I 
so publicly declared. But 17 days after that publication of 
that report, the movie industry presented to the Senate 
Commerce Committee a 12-points set of initiatives in which we 
vowed we would remedy the frailties of some of these marketing 
plans, and those initiatives are in place now and they are 
working. How to confirm that? Well, the FTC's second report, 
which came out in April of this year, in 17 separate citations 
commended the movie industry for making visible improvements in 
its marketing plans.
    Is it all over? Are we totally improved? Of course not. We 
have got some ways to go, but the point is we are trying and we 
have made visible improvement, as witness the FTC report. Now, 
just a final statement, a brief word about the Media Marketing 
Accountability Act; I want to say that I do not for one moment 
question the integrity or the commitment or the deeply-felt 
passions of this bill's sponsors. Every one of them is a person 
for whom I have personal admiration. They are superior public 
servants and the Nation is the beneficiary of their skills, 
their leadership and their fidelity to this country. But in all 
candor, I have to say that that proposed legislation treads 
heavily on the spine of the First Amendment. This government, 
through a regulatory agency, cannot, cannot, cannot intervene 
in First Amendment-protected properties or creative material.
    Now, I believe that is unconstitutional, and if anyone 
wants to question me, I would say read the June 20 decision, 
handed down this year, Lorillard v. Reilly, by the Supreme 
Court of the United States, which had to do with a company 
advertising its own product, and the court, citing Reno v. ACLU 
and Baker v. Michigan, said that no matter how well-intentioned 
the government's interest was in trying to protect children 
from so-called harmful material, that did not justify the 
suppression of speech to adults. Now, you can indict me, Mr. 
Chairman, for appearing before this Committee and practicing 
law without a license.
    Let me finish my last comment. What the ratings do is what 
the Federal Trade Commission has urged the Congress to 
understand, and that is that industry self-regulation of First 
Amendment-protected material is the best way to aid parents. 
Now, I am so enchanted by what I am saying here that really I 
do not want to stop, but I will, and I only hope that someone 
on this panel will ask me some questions about the letter sent 
to me, which I answered, by the National Institute of Media and 
Health, or whatever it was, but I would like to answer some 
questions about that.
    Thank you, sir.
    Chairman Lieberman. Thanks, Mr. Valenti. I have no 
intention of indicting you, but I do disagree with you about 
the Media Marketing Act, as you know, and I feel very strongly 
that it is not unconstitutional to simply amend the existing 
Fair Trade Practices Act that governs the Federal Trade 
Commission to say that if a business makes a representation 
about a product, such as rating it with regard to 
appropriateness for children, and then turns around and markets 
it to children, that is a deceptive practice.
    Mr. Valenti. May I respond to that?
    Chairman Lieberman. My final point is this: As you know, 
there is nothing I would like more than to get out of this area 
and see the industry self-regulate, and that is why, in fact, 
in the proposal that we have made, in the Media Marketing Act, 
Senator Kohl and Senator Clinton and I have created a safe 
harbor, and said that if any entertainment industry creates its 
own code of marketing and self-enforcement mechanism, they are 
protected from FTC action, period, exclamation point. So I hope 
that that will happen with the movie industry and all the other 
industries.
    Mr. Valenti. May I respond quickly to that? In Section B of 
that act, the safe harbor says that the FTC will specify 
certain criteria and that if producers abide by that criteria, 
then they are going to be protected from these fines, unless 
they are found guilty of marketing to children. I think that 
very definitely connects umbilically to the Lorillard v. Reilly 
case, but more than that it seems to me is what this bill does 
that I think puts to peril the movie rating system; it 
immunizes peoples who do not rate, because if you do not rate 
your film, you do not come under the canopy of this bill. But 
if you do rate your film, if you are trying to give information 
to parents, then you are going to have a possible penalizing, 
and that is where I think, in a respectful way, that we differ, 
but it is done very respectfully, Senator.
    Chairman Lieberman. And my opposition to your position and 
Mr. Baldwin's is done with the same respect.
    Mr. Lowenstein.

  TESTIMONY OF DOUGLAS LOWENSTEIN,\1\ PRESIDENT, INTERACTIVE 
                  DIGITAL SOFTWARE ASSOCIATION

    Mr. Lowenstein. I should start off complaining. It seems 
whenever I testify, I have to follow Jack Valenti. I am not 
sure that is fair. Thank you for having me here this morning--I 
should say this afternoon. I perhaps should rest my remarks on 
the statement that you made regarding our rating system, very 
kind remarks, and I appreciate them, but even though that is 
probably the better part of valor, to probably not say any 
more, I am going to plunge ahead. Let me start with a few very 
brief comments on our industry. It is a myth that most gamers 
are kids, which is something that I think is still widely held 
amongst the population. In truth, 145 million Americans play 
video games--that is 60 percent of the population--and their 
average age is not 12 or 14 or 16, or even 18. Their average 
age is 28 years-old; 61 percent of people who play games are 
over 18; 43 percent are women. So this is a pretty diverse 
market we are talking about.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lowenstein appears in the 
Appendix on page 123.
---------------------------------------------------------------------------
    I want to now turn quickly to the perception, as well, that 
many of the games out there, and I think you know this is not 
the case--you have often cited many of the quality games out 
there--do not contain violence. In fact, 70 percent are rated 
as appropriate for everyone, and last year, only about 117 of 
the 1,600 titles released carried a mature rating for violent 
content. Let me turn quickly here to the Entertainment Software 
Rating Board system, or ESRB, as we call it. As you yourself 
have said, this is, I think, a highly-effective system, one 
that provides a great deal of reliable and useful information 
to parents. You said so in the past and we appreciate your 
recognition of our efforts. I would like to--and I am somewhat 
hesitant to do this in view of the technological glitches this 
morning--but we do have about a 1\1/2\ or 2-minute video from 
the ESRB that describes the ratings process, so if we can take 
a shot and see if it works--if it does not, I will quickly move 
on and proceed with that.
    Chairman Lieberman. Fine.
    Mr. Lowenstein. Can you hear that?
    Chairman Lieberman. No. Could you make it louder, please?
    [A video is played in the hearing room.]
    Mr. Lowenstein. Thank you for letting me show that. The 
message there is that this is a fairly rigorous process. It 
involves individuals coming from all walks of life who review 
the game play and make independent decisions as to what content 
they think is appropriate, and then generate both an age-based 
rating and a content rating, and I think that is one of the 
reasons you said some kinds things about the rating system, 
because we have made the effort from the very start to provide 
information on content.
    I understand that there are those who disagree with some of 
the ratings on some of the games. Ms. Smit, who, by the way, 
from what I heard, is not only a good mother, but she must also 
be a cool mother--she was a very impressive witness--clearly 
has some differences of opinion with the ratings, and I respect 
that. But I do not concede that her opinion or my opinion is 
necessarily more valid than that of a demographically diverse 
panel of raters that the ESRB uses. Now, we have done--again 
commenting on some of the earlier testimony--we have gone out 
and tried to validate the system. We have not just assumed that 
it is right. Peter Hart, one of the most respected pollsters 
and researchers in this country, did scientific national 
research with 410 adults, and found that in 84 percent of the 
instances, average consumers rate games equal to or less 
strictly than the ESRB.
    Inevitably, some parents will differ from ESRB, and as I 
said, I concede the point. But the disagreement hardly reveals 
a flaw in any of the rating systems. It is not even surprising. 
Rather, it reflects, as Jack Valenti has said, the broad 
diversity of opinion that exists in a free and pluralistic 
society where individual parents have different views about 
what is acceptable and appropriate for their children. In the 
end, people do react differently to the same piece of 
entertainment, and not even a proposed government-blessed 
universal rating system offers any assurance of more reliable 
ratings or more accurate ratings, because accuracy does not 
exist here. This is simply a matter of perception in the end, 
and I would argue that, to the extent there is a government 
role in this, that is even less reliable than what industry is 
doing.
    I know we are very short on time. I am going to suspend the 
rest of my remarks. We have done, as you know, a great deal, I 
think, to try to educate consumers. We have supported retailer 
enforcement of our ratings, notwithstanding the fact that means 
that games that would otherwise sell are not being sold. We 
have done public service announcements with Tiger Woods and 
Derek Jeter and others to promote the rating system. We have 
advertising guidelines that you have referred to, and overall I 
think we are doing a good job. We will keep working at it, and 
I thank you for your attention this morning.
    Chairman Lieberman. Thanks, Mr. Lowenstein, very much. The 
vote, as is the habit of the Senate, has been postponed, so we 
can proceed to questioning. I have referred to the letter from 
the National Institute on Media and the Family, which is really 
what occasioned this hearing, and I want to ask the three 
industry-group association representatives to respond to the 
letter. Obviously, we do not have time to take on every point 
of it, but I am essentially asking at this point, is there 
anything that you are going to do in response to the letter? 
Because the letter, leaving aside the debate--it is an 
important debate about what effect entertainment has on 
behavior--this is all about the ratings. You all have ratings 
of one form or another. The letter says that the ratings, as 
they are now, are either inadequate, as in the case of the 
record industry, they are inconsistent across the industry, and 
they are confusing, and that is why they recommend the uniform 
system.
    So let me start with you, Ms. Rosen, and let me say first I 
appreciate what you have announced today, which is that you are 
going to have a mass-mailing about the parental advisory, you 
are going to update the labeling in all the stores, and you are 
going to produce some public service announcements featuring 
Quincy Jones. But the obvious targeted question I want to ask 
you is why not provide more information than the simple 
parental advisory, ``explicit content''? Even Mr. McMillon 
today--and I appreciate it--has essentially asked the industry 
to give the retailers a more standardized, delineated rating 
system on records.
    Ms. Rosen. Mr. Chairman, thank you. I think that actually 
the Kaiser study yesterday illuminated us quite a bit on this, 
where they actually found that a majority of people, over 50 
percent, 55 percent, I think, thought that they did not believe 
that a uniform rating system would be useful, and so I think 
there is clearly divided analysis on this, and the presumption 
that is what parents want, I think, is just fundamentally 
incorrect. With regard to the music system, it would be really 
easy to sit here and say we are going to try and make everybody 
happy. We are going to come up with a rating system. We are 
going to tell you whether this is sex or violence, and Mr. 
McMillon is telling us if we did, we would sell more music in 
Wal-Mart. That is an awfully attractive offer. Why aren't we 
taking it? For a reason, and that is because words are 
difficult to categorize. The fact is that we cannot make such 
subjective decisions when it comes to words, and it is 
virtually impossible, I think, for somebody to tell me how they 
would do it. Every lyric is going to mean something different 
to different people.
    Chairman Lieberman. Let me take you up on that. In other 
words, if a record has language that goes to violence or sex, 
or the language is vulgar, each of these other industries has 
attempted in rating systems to--generally they have developed a 
system that is fairly comprehensible and delineated, on these 
various categories, leaving it to parents to decide whether 
they want their kids to experience one or another of these. 
Isn't it possible to do the same with music?
    Ms. Rosen. It is not, and I think there is not an easy 
solution for parents who want this, and I just have to say this 
consistent reference to parents as somehow parents are calling 
for something and we are different is just overwhelmingly 
offensive to all of us in the industry. We are all parents, 
too. I am a mom who lives in the suburbs of Maryland and drives 
a minivan, so I am as qualified on that subject as Ms. Smit is. 
The fact is that I do not want to tell a parent whether Chuck 
Berry's singing about his ding-a-ling is about sex or whether 
it is about music. I do not want to tell a parent that when 
somebody says that they were blown away by that, whether that 
means that they have been shot, whether it is about the 
weather, or they are simply impressed. I think you have to 
concede that words are so different when it comes to 
interpretation than when you have a picture where there is very 
little doubt, and that is why we cannot do what seems like 
should have been an easy thing to do.
    Chairman Lieberman. OK. I remain unconvinced, but one thing 
I am convinced of, I know you are a parent and I know that 
people in the industry that I have talked to, in your industry 
and others, are parents and have a lot of the same concerns 
about their kids and what their media diet is. Some are 
struggling very sincerely with it. Some have changed the 
behavior of their companies. I was with Mr. Valenti in 
Hollywood and heard that from some folks who lead studios. So I 
appreciate it, and I guess in the end, I wish that the parental 
instinct would overcome the industry instinct, and that there 
would be--I am not speaking to you personally; I am speaking to 
the legion of people I have seen--and that their concern for 
their own kids as parents, and good parents and great parents, 
would be reflected more in the judgments made about what they 
produce and also what they tell us about what they produce.
    Ms. Rosen. So many places to go with that. There are many 
people in the music community and many people in society today 
who think that subject matter that is subject to interpretation 
actually is art, that they have put both their parental 
responsibility and their instinct for creative exploration 
first. As Mr. McMillon just said, this is not a commercial 
decision for us.
    Chairman Lieberman. Jack Valenti, it is a form of torture 
to ask you to respond to my question in the 3 minutes and 55 
seconds that I have left on my time, but see if you can do it.
    Mr. Valenti. I cannot take a breath in 55 seconds. 
[Laughter.]
    Chairman Lieberman. Why don't you see if you can----
    Mr. Valenti. I will sum it up very quickly.
    Chairman Lieberman. In other words, what is your response, 
and is the MPAA--and you represent Hollywood and TV--going to 
do anything in response to the letter?
    Mr. Valenti. Already have. I received this letter from Dr. 
Walsh, singed by some 20 or 30 people, on July 20. On July 28, 
I sent him what I thought was a well-thought out four- or five-
page letter. I wrote in the last part of the letter--this is a 
letter much too long to read--but, ``The reach of your critical 
comments makes it impossible to reply either briefly or 
blithely. Would you pass along to the other signatories a copy 
of my letter to you? I am available at any time to meet with 
you and whomever else you suggest. All you need do is call me 
and I will instantly respond.'' I want to meet with these 
people to talk it out. I have heard no response from any one of 
the 25 or 26 respondents.
    Chairman Lieberman. Let me phrase it in a somewhat 
different way, and direct it. Some time recently, I read a 
comment from Bob Iger, the head of Disney Pictures, former head 
of ABC.
    Mr. Valenti. He is president of the Walt Disney Company.
    Chairman Lieberman. OK--who said that he was interested in 
the idea of a uniform rating system, perhaps not surprisingly, 
but certainly credibly, based on the MPAA system. Now, you are 
the godfather or the father of that system. Why not try to have 
the MPAA system be the basis of a uniform rating system?
    Mr. Valenti. I am grateful to you for giving the entire 
Iger comment. Most people stop in saying I am for a one-size-
fits-all rating system. He says, ``And the rating system that 
ought to fit is the MPAA rating system.''
    Chairman Lieberman. Right.
    Mr. Valenti. Very briefly, the reason is why, as Hilary 
Rosen and Doug Lowenstein and others have testified, we are 
dealing with vastly disparate art forms. For example, the video 
game is interactive. Movies, music and television programs are 
not. Music is for the ear. It is like words, as Hilary said. 
The rest of us are not. The movies produce 650--we rated 650 
movies last year. On television, Mr. Chairman, there are 2,000 
hours a day of television program and the equivalent of 1,000 
movies every day, 40,000 albums, 1,300 video games. Now, where 
is this cyclopean eye, this all-seeing eye that is going to 
oversee all of this and meld it into a harmonious whole? It 
cannot be done, and by the way, what you Senators should 
understand is if you have one single system, do you know what 
you would have to do? You would have to make it exactly the 
duplicate of the TV system. Why? Because when the manufacturers 
of these new sets, and there are 50 million of them in this 
country today with the V-chip, passed by this Congress, you 
will obsolete 50 million sets, because the circuitry in there 
is irrevocable. It cannot be changed.
    Finally, the TV system does not have an adults-only 
category. Video games do, movie ratings do, but there are none 
in television. So when you mix all this together, what seems 
like a gloriously resplendent idea becomes decayed when you 
begin to look at it.
    Chairman Lieberman. My time is up. I was hoping that you 
would be the one to find that cyclopean eye, and that you would 
do it with Euclidian finality. [Laughter.]
    Mr. Valenti. I am pleased to know that you have been 
listening to me, Mr. Chairman. Thank you. Most people do not.
    Chairman Lieberman. A vote has begun on the floor.
    Senator Thompson, why don't I go over and vote, and we will 
sort of roll the questioning so we can continue the hearing 
without interruption?
    Chairman Thompson [presiding]. I am reluctant to bring down 
the level of this socratic dialogue to the more mundane, but as 
I have indicated, I have a real question to the extent of 
whether or not we ought to directly or indirectly, through 
hanging out there the threat of government agencies trying to 
do something that do not do a very good job of in any other 
respect, and that is fine-tuning a complex problem and getting 
it exactly right, even if we had the constitutional right to do 
that.
    I must say that in reading that Lorillard tobacco case, I 
was somewhat surprised to see where the Supreme Court said that 
even though there is no question about the harmful effects of 
tobacco, unlike the issue that we have concerning violence 
causation, that the government could not restrict advertising 
designed to be for the benefit of the children if there was 
this pour-over effect, and, in fact, it was making what adults 
would be subject to, down to the level of children, and that is 
something that I think we have to deal with.
    So looking at that, we are--our next fallback is the rating 
system, and I think what you are trying to do is admirable. I 
admire these individuals who are trying to get a better rating 
system. I think they are very good parents. But I hope we do 
not fall into the notion that is somehow going to really deal 
with the problem. There are too many people it will not touch, 
too many people it will be irrelevant to. There are too many 
one-parent households out there. It is too pervasive. At the 
risk of doing what I said I questioned, I guess I would simply 
use this pulpit to express what I would hope to be the 
direction that we ought to go in, because you have the right to 
do something does not mean that you ought to do it. I think we 
all know that, and because the Supreme Court says one thing 
today does not mean that it will not say something else 
tomorrow.
    Ms. Rosen, quite frankly, I think it will be the music 
industry that tests that limit--and I represent a lot of music 
people in Nashville. Of course, the biggest controversy we have 
in Nashville is whether or not country has gone too mainstream. 
It is a little bit different than what we are having to deal 
with here, but in many cases, a lot of this troublesome stuff 
is marketed almost solely to children. It has mass availability 
and you have got the most egregious examples. You can say what 
you will about music that depicts somebody's throat being 
slashed and listening to the blood gurgle, and killing your 
mother and stuff like that. But the fact of the matter is that 
is going to test the outer limits, and if I were in the 
industry, strictly from a bottom-line standpoint, I would 
simply add this suggestion: Take a long look at that. Nobody 
wants to stifle anybody's creativity. Nobody wants to stifle, I 
do not think, anything that even some people might find 
offensive, because of First Amendment considerations. But I see 
a trend that I would be concerned about if I was in that 
business.
    We were told with some certainty up here, back for the last 
couple of years, that the Supreme Court undoubtedly would, on 
the basis of the First Amendment, strike down State laws having 
to do with campaign finance regulation, because the whole trend 
has been going in one direction. The Supreme Court did not do 
that. It surprised everybody in town, a 5-4 decision, and they 
said that you could regulate. In that particular case, it was a 
hard money situation, and I wonder to what extent that might 
have had something to do with what was going on in the country. 
Since Buckley v. Valeo, there has been a sea change out there. 
We are awash in money from all directions.
    I do not think the Supreme Court is immune from seeing what 
is going on in the Nation, plus all that being brought to them 
in a legal forum. I see the same thing in the music industry. 
As time goes on, as these pressures mount, some of which I 
think are improper, but they are going to be there, by 
government and by others, I am wondering where you are going to 
be a few years from now. We talk about crime being in decline 
right now. I think the reason for that is demographics. The 
crime-committing age group is relatively small right now. In a 
few years, mid-teens to mid-twenties, just demographically, we 
are going to have many more of that age group, and the chances 
are we are going to see a substantial increase in crime for 
that reason alone. So you are going to have a substantial 
increase in crime. You are going to have Eminem still doing his 
thing, and stuff that is embarrassing to all of us with no 
redeeming social value that anybody can see, and you are going 
to rest comfortably on the fact the Supreme Court is going to 
be where it always is.
    The Supreme Court might do something that is unwise or 
questionable in the long run. I do not know. I am just talking 
here, because I do not feel like I ought to be telling you what 
you have to do. I might, as a citizen, if we had a private 
conversation, I would tell you some things as a citizen, in my 
opinion, that I do not feel, as a government official----
    Ms. Rosen. You have.
    Senator Thompson [continuing]. I have any particular 
business doing. But I would just put that out for your 
consideration. I think that, as I say, rating systems have the 
purpose, but the underlying product I would really question, in 
the movie industry and the music industry, about whether or not 
we could do a little better without sacrificing artistic 
freedom, to do our part with regard to the underlying product. 
I think William Baldwin is certainly doing his part. I had the 
benefit of going to New York and being with Bill and Alec and 
others awhile back, and I thought I was going to be, as a 
Republican up there, and several other actors, I thought I 
would probably be the one served for dinner. But I found all 
parents, all concerned, all, I would imagine at one time or 
another, have had some concern about the scripts that you have 
seen, things that you have had to make decisions on.
    I would be interested in knowing whether or not, from all 
of this discussion that we are having in the country right now, 
from your end of it, do you see any changes, any differences, 
any changes for the better? Are the people who make the 
decisions, you think, becoming a little more sensitive to what 
they might want their own kids to be seeing, or am I being 
overly optimistic? I have not seen any of that in awhile.
    Mr. Baldwin. Well, I would have to say that because there 
are so many more new opportunities and new entertainment 
outlets, there is so much more product being manufactured, 
there is so much more product being made, so there is much more 
excellent quality material being produced. But I think 
proportionally speaking, on a percentage basis, perhaps there 
is just as much bad, and I think part of the problem is that it 
is called show business for a reason. The operative word is 
business, and it does not have to be a violent film. It could 
be a film like ``Happy Gilmore.'' It could be an Adam Sandler 
film that people--you know, the opening weekend, it will open 
at $40 or $50 million, and then ``A River Runs Through It'' 
makes two cents and closes after its opening weekend, and the 
more those types of films are profitable, the more they are 
going to be made, and I think that they are a viable form of 
entertainment, even the violence and the sex is a viable form 
of entertainment and they have a constitutionally-protected 
right to express themselves in that way, and people have a 
right to see it.
    But there are a lot of times I will appear on television 
and I will say is it my fault for appearing here today? Is it 
your fault for inviting me? Or is it their fault for watching, 
because the main reason you had me come out here is because I 
am famous, and the main reason you had me come out here because 
I am famous is because you know it is going to generate ratings 
and you know more people are going to watch and you know this 
network is going to make more money because I am appearing on 
the show. You can have somebody appear on the show who is an 
expert in this area who is not famous, but they are not here 
today. You have me here today. And I said is it my fault for 
showing? Is it your fault for inviting me or is it their fault 
for tuning in? And, at some point, it has to be what will drive 
the market is demand, not supply. I think there has to be a 
greater demand.
    I am saddened by the fact that--I wish that ``A River Runs 
Through It'' or ``Quiz Show''----
    Senator Thompson. But you make the point or you mentioned 
``Hunt for Red October.'' As I think back on it, I do not know 
what the rating of that was. Now that I think about it, I do 
not recall even any profanity in the movie, much less any of 
the other stuff that cause people problems. I do not recall any 
of that, and yet they are still running it. I am amazed, you 
know, late-night cable. In other words, it did very well. So 
again we have a causation question. I think it attracts some 
kids, which is part of the problem, some of the bad stuff--but 
with regard to a large segment of the population, it seems to 
me like it does not matter whether it is there or not.
    It has to do with the quality of the script, primarily, and 
it has to do with the quality of the actors and the direction 
and all those things. But you can walk out of one of those 
movies, like ``Hunt for Red October,'' and it does not occur to 
you that there was no violence or nudity or bad language. It 
was just a good movie. So I do not think--I think from a 
production standpoint, it would occur to me that if I were 
making these things, that if you want to appeal to a younger 
crowd and do some things in there to induce them, I guess that 
is valid, because the R-rating causes ratings to fall off 
because young people under 17 want to go see them and they are 
not allowed to see them, and they are the moviegoing audience, 
primarily, I guess.
    But in a broader sense, it looks to me like the problem is 
not is if you have a so-called clean movie, that you are going 
to drop audience. The problem is it is more difficult to write. 
As you know better than anybody, a good script and a good story 
and done well is extremely hard, and I do not know what we do 
about that, but I would hope that it would induce folks to try 
harder in that respect.
    Ms. Rosen. I think, at the risk of answering a question 
that was not asked----
    Senator Thompson. It is just like I am finally back in 
control again here. [Laughter.]
    Ms. Rosen. So as long as we are stalling, I might as well 
throw it out.
    Senator Thompson. Well, I have a vote I am going to miss, 
but I will take that chance. Go ahead.
    Ms. Rosen. I just wanted to say two quick things. One is 
that I think that fundamentally the entertainment industry 
relies on the First Amendment, but does not use it as an excuse 
for everything that is made. I think that there is a sense of 
artistic credibility in things that you do not find credible, 
and when I heard you say that you thought ``Saving Private 
Ryan'' was a great movie for 14-year-old boys to watch, I heard 
groans in the audience because you have to concede you are 
seeing that through the prism of your own judgments and your 
own values.
    Senator Thompson. Exactly.
    Ms. Rosen. And that there are people in this country who 
would listen to Chuck D. or Mostep or Eminem, even, and suggest 
that that is through the prism of their world and their own 
values, and that is essentially the reliance on the First 
Amendment, not that you cannot touch us, but rather this 
expression all has some validity to somebody, and therefore it 
must be protected by everybody.
    Senator Thompson. But we all make judgments. I mean, that 
was my judgment about that. People who produce records make 
judgments. It is not like you do not make judgments. Everyone 
presumably has some line somewhere. The question is who makes 
that judgment? Should the government be making that judgment?
    Ms. Rosen. That is right. That is my point.
    Senator Thompson. And since it is the producer who makes 
that judgment, is it not appropriate for other people to voice 
their opinions, and the customer of this--this is a commercial 
enterprise that we are talking about here--and the customers 
getting together and expressing their opinion on the judgments 
that you make? I think that is what we are dealing with here. 
That is why I find a congressional forum for all of this an 
uncomfortable one. These are decisions and discussions that 
ought to be happening all across America, but it concerns me 
when the first thing we think about--when we have a problem in 
this country, the first thing we think about is government, and 
usually the Federal Government.
    Ms. Rosen. Right, and I think when the Supreme Court looks 
at this issue again, because people suppose that it might, if 
there is still crime in the streets and poverty in people's 
homes----
    Senator Thompson. You will have more reports, showing more 
causation.
    Ms. Rosen [continuing]. And divorce and child abuse, there 
is going to be music that reflects that. There is going to be 
movies that have those themes, and those are undeniable pieces 
of society.
    Senator Thompson. Anybody else have any comment?
    Mr. Baldwin. Yes, I just wanted to say one thing, that 
based on my experience with this issue, I just found it a 
little troubling, and I noticed Senator Lieberman addressed 
this earlier, but an overwhelming and disproportional amount of 
what the reason why we are here today, graphic and explicit 
violence, sex, profanity, the Media Accountability Act, it all 
addresses hip-hop music--disproportionately addresses hip-hop 
music and rap music. As Hilary mentioned earlier, the testimony 
of Russell Simmons, I read it and I think that it makes some 
very, very interesting points, and I think it is a little bit 
unusual that nobody from--no hip-hop artists or no rap 
artists--and it is interesting that publicly they cite Eminem 
because he is the token white guy who is doing this, because I 
guess publicly it does not want to be targeted as a black 
issue. But I really think that his thoughts and his feelings 
and the expression of that community needs to be included in 
this dialogue, in this discussion, next time.
    Senator Thompson. Well, you might go back over that with 
the Chairman, who has just walked in. But I thought about that 
as she was speaking. I think the notion that this in some way 
is a racial targeting, I think, is not only invalid, I think it 
hurts those of us who are really concerned about protecting the 
First Amendment rights of artists. I do not know what the 
numbers are. I do know that Eminem has been singled out. I 
think he is the one whose record I have described awhile ago, 
about the throat slashing and the killing of the mother and 
that sort of thing. I really question, from the standpoint of 
African-Americans, whether or not someone coming forth and 
urging that this, in some ways--these kind of lyrics is an 
indigenous part of race, is beneficial. I think there are 
millions of families out there----
    Ms. Rosen. That is not what they say.
    Senator Thompson [continuing]. That would not want to be 
represented by those kinds of statements. I think that it ought 
to be considered on its merits. I think that when people use 
racial motivations for people who there has never been any 
indication, anywhere or anytime, that that is the case, hurt 
the legitimate claims that they have concerning this music.
    Senator Lieberman, concerning not having someone here from 
the hip-hop industry and the implication that that music has 
been targeted for racial reasons, as Mr.----
    Mr. Baldwin. Can I just--I am not accusing this Committee 
of targeting that for racial reasons. I am saying it is a 
consequence. It is an unconscious consequence. The overwhelming 
amount--the reason we are here today is to talk about 
protecting children and empowering parents from violent media, 
from sexual media, and from profanity, and by definition, an 
overwhelming percentage of hip-hop music and rap music falls 
into this category, and I think that when we look at 
Shakespeare, when we look at the Greek tragedy, we see an 
honest reflection and portrayal of the times in which they 
lived and the culture in which they lived, and I do not think 
it is going to take 50 years or 100 years or 500 years--at that 
time, it was provocative and controversial, as it is today. I 
do not think it is going to take 100 years to look back and see 
how honest a depiction or a portrayal that was for minority 
communities who live in urban areas.
    I understand that now, and I respect that now, and I think 
that is just as honest as Waylon Jennings twanging his guitar 
and talking about how he fell in love with his sweetheart and 
she broke his heart and he had too much to drink and he thought 
about killing himself, and I think that that is as honest and 
accurate a portrayal as country music or as a Shakespearean 
play or a Greek tragedy, and I think, unfortunately, most of 
this music has fallen into--has become prey of what this 
Committee is interested in addressing, and I think just because 
it has violent or sexual content or profanity, I do not think 
that there should not be information given to parents and I do 
not think that there should not be a parental advisory for that 
at all, by no stretch of the imagination. But I just want to 
acknowledge publicly that I do not think there is anything 
wrong with people expressing themselves in that way.
    Senator Thompson. Mr. Chairman.
    Chairman Lieberman [presiding]. Thanks, Senator Thompson. 
Obviously, I am at some disadvantage because I have not heard 
the preceding, but just to go back to Mr. Simmons, when the 
request came in, it came in at a late hour, and it was our hope 
to have the industry association representatives here, 
representing all elements of the recording or TV and movie or 
video game industry. So we did not have an opportunity to 
include him.
    Second, I am intrigued by what my staff tells me is the 
notion that a disproportionate number of those records 
stickered are either hip-hop or rap records, and that is 
something that is worth considering. I do not, to put it 
mildly, claim to be an expert here. But in the previous work we 
have done on music, it seems to me that a lot of rap and hip-
hop was not in the parental advisory, explicit content 
category. It is obviously clear that no one racial group has 
any--at least as I view the entertainment industry--any 
monopoly on producing material that is of questionable content 
to parents. I mean, it is broader than that.
    Go ahead, Ms. Rosen.
    Ms. Rosen. You know, the facts of both the marketplace and 
the genres are that hip-hop music tends to have more profanity, 
and therefore subject to more labels, and that you can be 
talking about the very same domestic abuse in ``Goodbye Earl'' 
by the Dixie Chicks, but because they are not saying it with a 
lot of curse words, it is not going to get a parental advisory 
label for explicit content, because that is what the label 
means. I think the larger point here, Mr. Chairman, I think is 
that I think this is probably the eighth or ninth hearing I 
have testified at on this issue over the years, and 
consistently there has been a desire on the part of people who 
actually create this music to come and tell their stories, and 
they are consistently denied, because it is frankly easier to 
make this be about corporations than about artists.
    Chairman Lieberman. So you are saying you would like not to 
testify at the next hearing?
    Ms. Rosen. I think that would actually be a nice thing, 
certainly provided that artists get to speak for themselves, 
because they do have views, and the irony of all of this, when 
you talk about content labeling and things, is that when 
parental advisory labels were first created for music lyrics in 
1985, there was a hearing in the Senate, promulgated by the 
Parents Music Resource Center, and artists were invited to 
testify at the very first hearing, and that is why we do not 
have content descriptors, because Dee Snyder of Twisted Sister 
came in after having his song, ``Under the Knife,'' be attacked 
for an hour-and-a-half by Senators on the panel as being 
disgusting and violent, about murder and slashing, and he came 
in and said, ``What are you talking about? My friend was going 
to have surgery the next day, and that was about feeling 
vulnerable in an operating room under the surgeon's knife.'' 
That sort of irony, when an artists gets to speak for 
themselves about the multiple meanings and experiences of their 
life, does not get represented at these hearings.
    Chairman Lieberman. I look forward to meeting with Mr. 
Simmons, and if there is a good reason to hold another hearing, 
I will be happy to do it. I wish that all the violent and 
sexually explicit lyrics and content that parents are concerned 
about had the same ironic and innocent explanation as the case 
that you gave, because they do not.
    Mr. Baldwin. I just wanted to make one more comment that 
sort of reinforces what Hilary said. Clearly, she knows a lot 
more about this, and Russell Simmons knows a lot more about 
this than I do, but my wife is a recording artist, and she has 
written several albums, and she had an album. Her debut album 
had her first single that went to No. 1--was a song called 
``Hold On,'' and she got hundreds and hundreds of comments from 
people on the street and hundreds of letters from people that 
said that they were on the verge of committing suicide, they 
were on the verge of hurting themselves, and when they heard 
the song--the lyric is ``Hold on for one more day,'' they 
thought she was speaking to them about overcoming the despair 
in your lives or heartbreak in relationships and so on. The 
song, in reality, was about sobriety, 1 day at a time. The 
song, ``Hold On For One More Day,'' was about trying to fight 
to stay sober.
    So I think it just plays well into the argument about 
subjectivity and interpretation, and how the written word is 
different than the visual image and how a universal rating 
system may not apply because of that.
    Chairman Lieberman. Also, because of the power of music and 
all the entertainment media to affect behavior--both 
constructively, positively, and negatively--in the example you 
give, I have got two quick questions about the ratings.
    I understand the opposition to the uniform rating idea. Mr. 
Valenti, on the question of the TV ratings, the Kaiser Family 
Foundation study that came out today shows that--the headline 
is ``Few Parents Use V-Chip to Block TV Sex and Violence,'' but 
more than half use TV ratings to pick what kids can watch. 
There is actually a statistic that says that 53 percent of 
parents who now own a TV equipped with a V-chip do not know 
that they have this capability. Is there something more that 
the industry can do to better inform people--parents, 
particularly, but viewers generally--of this capability that 
they have?
    Mr. Valenti. Good question, and the monitoring board met 
last week. We had public advocacy groups and members of the 
industry there, and we were briefed by Vicki Rideout on the 
Kaiser study. I think one of the most relevant pieces of 
information that came out was that half of the people who had a 
V-chip in their television set did not know about it. One of 
the things that we are trying to do now is to do work with 
retailers of television sets and manufacturers of television 
sets. All they have to do is get a little sticker on it, a 
yellow sticker with black lettering, that says, ``This TV 
contains a V-chip,'' and to have something xeroxed there, very 
simple; when you buy the set, you get this little xerox piece 
of paper that says you have a V-chip, this is what it allows 
you to do and this is how to use it. That is not extant at this 
time. It does not exist, and one of the things we hope to do is 
to try to get point-of-sale information, because the time to 
know that you have a television set with a V-chip is when you 
buy it, not afterwards, and 36 percent of the people who know 
they have a V-chip, use it.
    Now, it may be, if you look at this, that maybe we 
complicated the television ratings too much and maybe it is a 
little bit difficult to use, as many of us still today cannot 
program our VCR longer than 30 minutes, and therefore that 
might be. But we are working on trying to get this point-of-
sale information, so when you buy that television set, you say, 
``Eureka. I have got a V-chip, and this is what it does.''
    Chairman Lieberman. Good. I appreciate that. Final 
question: When I was out in Hollywood a couple of months ago 
and I met with the MPAA and The Creative Coalition and the 
Directors Guild, I found an interesting and, I would say, an 
encouraging amount of dialogue--maybe some would call it 
tumult--within the creative community about the ratings system, 
from the point of view of the creative artists and the 
directors, particularly, as you know, taking a lead on this 
from their own point of view, wanting to delineate the system 
in more detail, which would have the effect of better informing 
consumers of movies, viewers and parents, obviously; and if I 
understand the premise, it is that the R-rating has become 
ubiquitous, so that more than 50 percent of the movies are 
rated R. You know these numbers better than I do, Jack Valenti, 
and that it covers such a wide latitude that the viewing public 
would be benefited by more delineation and particularly by 
trying to sort of revive the original intention behind the NC-
17 rating--which, as somebody said earlier, only three or four 
movies have received--so that it is not a kiss of financial 
death, but that it makes clear that these are really movies 
that are intended only for adults.
    So I would ask both Mr. Baldwin and Mr. Valenti if they 
want to comment on that. I know in the meeting I had with The 
Creative Coalition, there was a fair amount of discussion of 
this matter. Jack Valenti, what is the latest? I believe the 
Directors Guild came out with a proposal on this publicly; am I 
right?
    Mr. Valenti. I do not know if they have come out with it 
publicly, but I listen very carefully when the Screen Actors 
Guild or the Writers Guild or the creative community, Billy 
Baldwin's Creative Coalition, and particularly the Directors 
Guild, makes any comments, and I have met with them several 
times, listening to them and some of the things they think 
ought to be done. And, of course, we have a partner in the 
rating system. Keep in mind, Mr. Chairman, there is one thing 
that people who wrote me this letter and people who speak about 
the rating system do not understand, and that is that the 
industry has nothing to do with it.
    Lew Wasserman, in his powerful day, Sumner Redstone, Rupert 
Murdoch, Michael Eisner, have zero influence on this rating 
system. The only two people in this country who have anything 
to say about the policy and the people who inhabit the rating 
board, one is the president of The Motion Picture Association 
and the other is the president of the National Association of 
Theater Owners, and if any producer, any director, any studio 
boss, any mogul, tries to pressure the rating system, they have 
to run me down, and as you can see, I am still standing.
    Chairman Lieberman. You mean pressure about a particular 
rating on a particular movie?
    Mr. Valenti. Absolutely.
    Chairman Lieberman. But we are talking about the whole 
system. In other words, whoever created this system presumably 
can change it, if there are good recommendations to change it.
    Mr. Valenti. That is right. I met with a number of 
exhibitors 3 years ago, and we created this system. We talked 
to studios. We talked to independents. We talked to the three 
creative guilds. We talked to religious organizations. We 
talked to movie critics, to try to form a consensus, and that 
is how it came about. But I am saying to you that only two 
people really have the power to change this thing, and the 
reason why is if we did not, there would be bedlam out there. I 
am listening to the Director's Guild, because some of the 
people with whom I have conferred are people for whom I have 
enormous respect.
    Chairman Lieberman. So you are listening to them?
    Mr. Valenti. I beg your pardon?
    Chairman Lieberman. You are listening to the Directors 
Guild?
    Mr. Valenti. Absolutely.
    Chairman Lieberman. Do you think that you and those two 
people you mentioned are open to some of the changes that they 
are recommending, which I think would not only more reflect 
their creative instincts and work, but would better help 
viewers understand what the movie contains?
    Mr. Valenti. I am not prepared to tell you what we are 
going to do or what we are not going to do. I am very merely 
saying that their voices command respect, and we have met 
several times. We will meet again, and also they are meeting 
with the National Association of Theater Owners, who are 
partners in this, because if you do not have the theater 
owners, you do not have a rating system.
    Chairman Lieberman. For my part, based on the discussions I 
have had with them, I think that they are on to something. 
Incidentally, I love the movies.
    Mr. Valenti. Well, I hope so.
    Chairman Lieberman. No, in other words, my criticism is the 
criticism of a fan, really, an admirer. But for my part, as I 
listened to them, their recommendations made a lot of sense, 
and I hope you will look at them.
    Mr. Valenti. We are looking at them very carefully, and I 
know that one of the directors who talked to you has been in 
touch with me, and we are listening, and, as I said, so is the 
theater owners' association listening.
    Chairman Lieberman. Mr. Baldwin, what does The Creative 
Coalition think about--on your own, no government influence--
about altering the rating system to better reflect what is on 
the screen?
    Mr. Baldwin. Well, this is not an area of my expertise. 
Clearly, Mr. Valenti knows a lot more about this than I do, but 
I think many different circumstances have converged, such as 
certain events in our history, new information, political 
pressure from this body and from the media and from advocacy 
groups, parents groups, have already led to the dividing of the 
PG rating to PG-13, and the introduction, the implementation, 
of the NC-17 rating, and I think that recently Mr. Valenti has 
spoken to me about, for example--Mr. Valenti, you said 
something to me yesterday about how new information, if you 
have an advertisement for a movie in a newspaper and the ad is 
more than a quarter-page in size, it provides information that 
gives more information to consumers and to parents about the 
specific reasons for why a film was rated the way it was rated.
    Mr. Valenti. Correct.
    Mr. Baldwin. These are ways in which--again, when the First 
Amendment comes in conflict, when defending freedom, when 
protecting freedom comes in conflict with protecting children, 
you cannot expect dramatic results to happen overnight, as I 
said before. This has to happen incrementally. It has to be 
carefully thought out, and I think that the business, through 
self-regulation, has elevated the bar, and I do not think the 
system is perfect and I think there are areas where we can 
tinker with it and certainly improve it, and I think that the 
recording industry--I think all the different mediums have done 
so. Is there more work to be done? Yes, and I think the role 
for government, as we discussed before, is to do exactly what 
you are doing, be the leaders that you are being and work with 
parents and advocacy groups and the media and the entertainment 
industry, and can The Creative Coalition be a bridge from 
Capitol Hill to the entertainment industry, to create access 
and opportunities and a dialogue and raise awareness and 
educate people, and try and strengthen these systems to empower 
parents? I believe we can.
    I think everyone is doing a nice job, and I think that 
members of Congress and parents do not think that it is 
happening quickly enough, but when you factor in the First 
Amendment, it is not going to happen fast enough.
    Chairman Lieberman. Senator Durbin has sent a message that 
he wants to return. This mean, unfortunately for you, that I am 
going to ask a question or two more, to give him time to 
return, and if he does not in about 5 minutes, we will adjourn 
the meeting.
    Mr. Valenti. I was hoping you would say that, Senator.
    Chairman Lieberman. Yes. I know you did not want to leave, 
Jack.
    Mr. Baldwin, you talked about media literacy. That was a 
topic that I raised at every meeting that I was at when I went 
out to Hollywood, and I do think it is something, an area of 
common ground that we ought to all be able to work on 
constructively. I guess I will end it by simply saying that 
anything you think government can do to be supportive of those 
programs, insofar as they are educational, and we may be able 
to help in that sense, and I would certainly appeal to the 
various industries to be proactive in helping to support and 
fund media literacy programs. It is as important, I think, for 
our kids today in this electronic age to learn how to 
comprehend, understand, and deal with the stories that are told 
to them over the electronic media, as it was for kids in my 
generation to learn reading comprehension.
    So I am going to end there and yield to Senator Durbin.
    Senator Durbin. Thanks a lot, Mr. Chairman. I apologize for 
being held up on the floor for a few minutes. Mr. Baldwin, I 
thought you made a great statement. I like your balance in 
suggesting that there are a lot of reasons for young people to 
get into trouble, and I know that Senator Levin often uses the 
example of his city of Detroit, which shares the same 
television market and the same movies with Windsor, Ontario, 
and that the number of murders and violent crimes committed on 
his side in Michigan are substantially larger than those 
committed on the other side, in Ontario, and he raises a 
question, a legitimate question, what lesson do we draw from 
that? And I think you have drawn an appropriate lesson, the 
availability of guns and a lot of other things should be 
factored into questions about youth violence and what causes 
it, and I also want to commend you for saying at some point 
maybe this does play a part. Maybe this whole thing, media, 
does play a part in it.
    I do not know where you draw the line. There has been a lot 
of reference here to the tobacco industry during this entire 
testimony, and I have spent 19 years fighting them tooth and 
nail, and am damn proud of it, as we say in the Senate. But I 
would say it troubles me and my wife to sit and watch all the 
movies with people smoking in them that kids are watching, and 
I am thinking I wonder what lesson that is. But I wonder if 
that is a line that we need to draw or the industry needs to 
draw, or do you just appeal to the creative people and say, 
``Think twice about this, if you will.'' What are your thoughts 
on that? Have you ever been on a movie set where they have said 
this is something we want to do, and you say, ``Wait a minute. 
That goes over the line?''
    Mr. Baldwin. Oh, of course. I mean, I turn down material 
all the time on a--I would like to say on a daily basis, but I 
do not get that many offers--but, on a weekly basis, I am sent 
material that I am offered, that I turn down, because it does 
not meet my standards. But I think, again, it is subjective. 
There is someone that would see violence in a Shakespearean 
tragedy, and that is acceptable. They would see it in a ``Home 
Alone'' comedy, where McCauley Caulkin pushes the piano down 
the staircase and it pins Daniel Stern and Joe Pesci against 
the wall, and say that that is violence, but that is OK, 
because it is shrouded in comedy and there is a cute little boy 
in the film; whereas ``Natural Born Killers,'' because it is 
sensationalized in some way, is not acceptable and it is 
inappropriate. So I think that it is subjective. It is up to 
the interpretation of the individual.
    Senator Durbin. I agree with that, and I think that makes 
the point.
    Mr. Simmons. Can I make a statement? You are talking about 
me like I am not here for the last hour. I keep hearing my name 
pop up, and I am here, and I have a statement, but, I do not 
know if I want to read the statement. I certainly would like to 
interject here.
    Chairman Lieberman. Mr. Simmons, why don't you wait a 
minute, let Senator Durbin finish his questions?
    Mr. Simmons. Because I did request to speak on this panel 
10 days ago, and most of what is really being discussed is 
about hip-hop, although we are not making----
    Chairman Lieberman. Yes, I hope you understand that the 
reason you were turned down was only because, if we started 
to----
    Mr. Simmons. Twenty-three out of the 27 artists the FTC 
cited were black.
    Chairman Lieberman. I am going to give you an opportunity 
to speak after Senator Durbin is done.
    Mr. Simmons. Oh, good. Thank you.
    Mr. Baldwin. Where were we?
    Senator Durbin. I think that you responded. I think you 
made your point about the subjectivity of these decisions and 
how far you go and what line you draw, and I think that is why 
Senator Lieberman and I would agree it is very difficult, if 
not impossible, in this free society we live in for government 
to lay down these standards. We have had a tough enough time 
with the Supreme Court trying to figure out what is right and 
what is wrong, and I will not go any further on that line of 
questioning. But I do want to ask Mr. Lowenstein a question.
    You make an interesting point with your video about the 
standards that have been applied to video games. Senator 
Lieberman--I have joined with him in some legislation relative 
to this area, because we find--and maybe there are some 
analogies and parallels to movies and other things--but that we 
find that in your industry, when you have rated one of these 
games, for example, as adults-only, that that does not 
necessarily mean that kids cannot walk into a store and buy it, 
and that becomes, I think, the real failure of the system, if 
it is not complete from start to finish.
    My Attorney General in the State of Illinois, Jim Ryan, who 
happens to be of the opposite political faith, but I agree with 
him completely on this effort, conducted an investigation to 
determine whether national retail stores were complying with 
the voluntary video game rating system developed by the 
Entertainment Software Rating Board. Attorney General Ryan 
found that in 32 out of 32 instances, children between the ages 
of 13 and 15 were able to buy those games rated for mature 
audiences, games that were not recommend for children under 17. 
There was no documentation necessary, no proof of age, no 
questions asked. Some stores came forward and said, ``We are 
going to get serious about this,'' and we have since learned 
they did not.
    How do you follow through? Once you have the rating, do you 
feel that your hands are clean then? It is entirely up to 
retailer to make sure these do not get to the hands of 
children?
    Mr. Lowenstein. Ultimately, yes, it is entirely up to the 
retailer. Obviously, we do not control the policies at retail. 
We have for over 3 years, well before this issue really took up 
steam, encouraged retailers not to sell mature-rated games to 
persons under 17. That has been a position we have taken 
consistently, notwithstanding the fact that the rating itself 
has never said that the content is inappropriate for people 17 
and under. It has never made that distinction. We voluntarily 
said let's make this a hard M-rating. We support retail 
enforcement. Since then, Wal-Mart, Circuit City, Staples, 
CompUSA, Kmart, I believe, and a number of other mass 
merchants, have all adopted policies in one way or another to 
card for M-rated games. We support those policies. How 
effective they are at retail really is something that the 
retailers need to continue to work on. We continue to work with 
them. We encourage them to carry those policies through, and I 
should note that in many cases, the same policies in terms of 
restricted sales do not carry through to other content. So we 
have sort of taken the position we are willing to have our M-
rated games treated, frankly, more harshly at retail than other 
content, and we encourage retailers to adopt those policies to 
restrict sales to minors.
    Senator Durbin. What should be the government response if 
we find that retailers do not enforce your own standards, in 
terms of inappropriate games for children?
    Mr. Lowenstein. Well, candidly, I do not think there is a 
government response, in my view. This is a legal product. It is 
a constitutionally-protected product, and at some point, I 
think, besides the encouragement that some Senators have had--
Senator Lieberman, I know, has had a dialogue over the years 
with retailers to encourage them to be more proactive in this 
area--and I am not sure there is much more you can do, and 
there is certainly not much more that we can do. We have made 
our position clear to the retailers. I meet with them regularly 
and encourage them, not only to promote the rating system--to 
regulate sales--but to promote the rating system, because 
ultimately we believe parental awareness and education is 
enormously important.
    Many retailers are running our Tiger Woods public service 
announcements, our Derek Jeter public service announcements, in 
their stores. So many retailers are taking additional steps to 
try to increase awareness, as well.
    Senator Durbin. Well, I will just close by saying, going 
back to the tobacco analogy, for years, they would buy full-
page ads in the Wall Street Journal, telling children not to 
smoke, and that really was not the appropriate venue or forum, 
and perhaps running a video at a store has some value, 
particularly with someone as popular as Tiger Woods, but more 
important is whether the retailer takes his responsibility 
seriously, and I think your industry, frankly, should be part 
of that, too, to make certain that there is some enforcement 
when it comes to the sales. Otherwise, this is a sham, and I 
think some of these games are pretty outrageous.
    Mr. Valenti, 13 people sit down and grade movies?
    Mr. Valenti. Yes, sir, 12 or 13.
    Senator Durbin. You are the one who ultimately has the last 
word in hiring them?
    Mr. Valenti. Yes, sir.
    Senator Durbin. The only requirement is they have to be 
parents?
    Mr. Valenti. Parents, yes, sir.
    Senator Durbin. And they are paid about $30,000 a year?
    Mr. Valenti. Well, I do not want to go into that, sir, if 
you can let me pass that question by, but they are paid full-
time.
    Senator Durbin. There has been a suggestion from Ms. Smit 
and others that perhaps we need some people in there with a 
little background and interest in child psychology and 
childhood development. Do you take that into consideration?
    Mr. Valenti. Earlier, I did have a couple of child behavior 
experts on there, and, in all candor, I did not find them any 
more unerring in their judgment than just plain parents. What 
we want to do is to have these parents ask themselves one 
question: Is the rating I am about to vote to apply to this 
picture one that most parents in America would judge to be 
accurate? This is totally subjective, Senator. As I said 
earlier, we do not have any precision here. Child development 
experts, social scientists, carpenters, do not have any idea 
about how individual people are going to react to an individual 
movie. All parents are not alike. All children are not the 
same. Only parents know the emotional, intellectual, and 
maturity level of their children. No one else knows that. 
Therefore, what we do is to give some direction to parents. We 
say R says this movie may contain some adult material, though 
it is not adult-rated, and therefore a child must be 
accompanied by a parent or an adult guardian. The NC-17 says we 
believe this is unsuitable for children. It is the only 
category where we make a mandatory stand against admission by 
children, and the PG-13 says this is a movie, obviously, that 
does not, in our judgment, reach the level of an R, but some 
material, to some parents, may be inappropriate for pre-
teenagers.
    And then we are now putting in every ad and every web site 
of every movie, plusfilmratings.com, that anybody can come to 
that web site, and we have put in here what the rating is and 
why it got the rating on each of these ads, so that a person 
can look at it and say, ``Graphic violence, language, nudity.'' 
Now, if you do not like any of those for your children, do not 
take them to see that movie.
    Senator Durbin. Let me ask you a similar question I asked 
Mr. Lowenstein. How much of an effort do you make in the 
industry to make certain that the movie theaters pay attention 
to the 17-year-old limitations, for example?
    Mr. Valenti. Well, that is not my turf. However, they are 
partners in the rating system, and my judgment is, based on 
their own research and independent research, I think doing a 
pretty good job, maybe 70, 75 percent of theaters are 
enforcing. But we have speed laws, we have drug laws, we have 
all sorts of laws in this country, Senator, that are not being 
obeyed each day. That does not make it a bad law, it is just 
that some people will violate something. If a kid is 
resourceful and really wants to get into an R-movie, he can, 
just as if somebody is a good hacker, they can get into the 
Pentagon war room if they need to.
    But I think that my judgment, which I will give to you, and 
it is a judgment call, is I salute the theater owners. I think 
they have done a terrific job in turning away revenues at the 
box office in order to fulfill our obligation to parents. How 
many other industries in this country do that? I do not know of 
any, except video games and probably music. Who else turns away 
revenues? We do.
    Senator Durbin. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Senator Durbin, thanks for your 
interest in this subject.
    Mr. Simmons, because you are here, because you have been 
referred to repeatedly and your concerns have, I do not have 
any hesitation to make an exception to the normal rule, and I 
look forward to your testimony now.
    Mr. Simmons. Thank you, Mr. Chairman. Well, I did not come 
to testify, but I certainly do want to make a few comments.
    Chairman Lieberman. Please.

      TESTIMONY OF RUSSELL SIMMONS,\1\ CHAIRMAN, PHAT FARM

    Mr. Simmons. At a later date, I would like to testify if 
these hearings continue. I want to start by saying something 
very positive about what the hip-hop industry is doing to take 
responsibility, because I believe it is our, as industry 
leaders, job to take responsibility. We recently held a summit 
in New York where most of the leaders attended, and we dialogue 
about what our responsibilities are and how we might expound on 
the ideas that we have already implemented, including the 
rating system that we have, or the parental advisory sticker 
that we do have already, and we have talked about how we may--
and I guess we adopted--the whole industry has agreed that 
every time there is a television ad run or a radio spot run, 
that we will use those stickers. Where they were not visible 
before, they will be now, going forward.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Simmons appears on page 45.
---------------------------------------------------------------------------
    And we also agreed that we want to put--and in most cases, 
up to 70 percent of our lyrics are posted on web sites. So you 
will be able to see detailed descriptions of what is inside.
    Chairman Lieberman. On the artists' web sites?
    Mr. Simmons. The lyrics, yes. That is correct. So we are 
looking to make sure parents know what they are buying, but I 
want to make it clear to this Committee that most of the people 
who you are indicting today, and 23 of 27 of the FTC's groups 
that they have chosen to go after are black and are hip-hop. 
Eminem is an exception. He has maybe been profiled or 
something. But we are working hard on making sure that everyone 
understands what it is they are buying, but it is not easy to 
make this Committee or some of the other people outside the 
community, and I mean young people and hip-hop people, because 
80 percent of the people who buy our records are not black.
    So the plight of the kids who live in Compton is a lot 
clearer now to the kids in Beverly Hills, and that may be a 
big--that probably is one of the reasons so many people are 
afraid of hip-hop. But we have worked very hard over the years 
to have integrity and promote honesty in our artists, in their 
lyrics. Some of the songs you may find offensive, protests 
songs or other songs, are actually reflections of realities 
that need to be expressed. I think the real issue is how do we 
address these issues, more than it is that we want to shut 
these reflections of our realities down.
    Some of the things that come out on records are things that 
mostly are behind doors, and on records now are visible. The 
real issue of how we address the issues and the suffering in 
the communities--and an example, one of my favorite songs was 
``F the Police,'' and I know there was a big stir about that 15 
years ago, not as big as it would be if it came out today, 
because, of course, now you have got 80 percent non-black 
listening. That song was a protest song, and it reminded you--
in case you did not know about the way people were being 
treated by the police in Compton. Racial profiling still exists 
and we still have to deal with it, but that song was very 
important in identifying that issue. So hip-hop, the poetry, is 
a lot different from the love songs or the fun songs.
    In fact, Eminem's song, I find a lot less offensive than a 
lot of the hip-hop songs you may find more offensive, because 
they are critical of our realities. Eminem is a college kid 
ranting and raving. Just like he said, ``Natural Born Killers'' 
was--you said ``Private Ryan'' was OK. ``Natural Born Killers'' 
is a movie with a bunch of funny references to violence, as 
opposed to scary violence, to me. It did not hurt me or offend 
me or I did not find it as harmful as I did ``Private Ryan.'' 
So that again is so subjective, and when you are talking about 
cultural issues that divide us here in America, then it even 
becomes much more subjective. And with the absence of anybody 
from the hip-hop community on this Committee or involved in 
this process, it is difficult for you to make these choices, of 
which the other day, I think, that the FCC and the government 
is already involved in aggressive censorship. They are suing 
radio stations, or they went after a poet who I happen to 
represent or work with very closely. Her name is Sarah Jones, 
and they said that she said revolution is not between her 
thighs. Well, it is not, and I thought that that was a pretty 
good statement as part of her poem. It is kind of a feminist 
poem.
    Eminem flipping the bird is not so offense to me, either. 
But then they decided those radio stations were to be sued for 
playing those records. It is a very sensitive--and I know it is 
an important issue, how parents know what their kids--but they 
have to be parents. I think that is first, and I think 
everybody on this panel has said that. So the cultural issue is 
the most important issue when you start deciding what is good 
and what is bad, because if you do not understand it, it is 
impossible for you to rate it, and the universal rating system 
is, in my opinion, and most people here have agreed it does not 
work when you are talking about words, because then what would 
you do about Mark Twain years ago or jazz or blues or rock-and-
roll and all those things that have become such important parts 
of our American Heritage?
    You have to understand that what is offensive today and so 
scary today, with the depiction of our realities today, in most 
cases, in rap's case, it has always been as bad as it has ever 
been, from Shakespeare all the way until now, and this is not a 
new discussion, as we have all said, as well. This dialogue 
is--they are going to teach DMX, who you will probably find 
offensive if you listen to his lyrics--they will be teaching 
his poetry in UCLA in a few years. I am sure of that, and most 
people in the hip-hop industry or who understand hip-hop will 
believe that statement. So it is very complex. It is not as 
simple as shutting down the reflection of our reality. The real 
issue, I think--I just want to make this statement very clear--
is to address the issues, to listen to the songs, the 
disconnect between young people and politics, and young people 
and American responsibility--is clear in those songs. Again, it 
is all America. I say blacks are delivering the messages, but 
it is clear to all young people in America. So I hope you take 
that idea and put it in your mix when you--thank you.
    Chairman Lieberman. Thank you, Mr. Simmons, for a very 
eloquent statement. You contributed greatly to the hearing. I 
agree with you that the real issue is to deal with the problems 
portrayed, described in hip-hop music, and I would like to 
continue the dialogue with you.
    Mr. Simmons. Thank you. I look forward to it.
    Chairman Lieberman. On another occasion, because I have 
kept everybody here too long. I appreciate what you said about 
the interest that came out of the summit that was held----
    Mr. Simmons. And we are planning two more; one in L.A. this 
month and one in Miami next month.
    Chairman Lieberman. Yes, and I appreciate what you said 
about the sticker policy and putting the sticker into the 
advertisement. It is very important, and sometime when we have 
more time, I would like to ask you the same question I asked 
Ms. Rosen, which is whether there is not a way for the stickers 
to be more delineated, just give a little more information for 
the consumer.
    But, with thanks to you for ending the hearing on a 
constructive note, I want to thank all of the witnesses. To me, 
it has been a beneficial, informative day. I think we always 
see, to me, how important these matters are, but also how, in 
some senses, complicated they are. I guess, bottom line, I make 
the appeal that I always make, with thanks to the industry and 
creative artists for the steps forward, and to urge you to keep 
moving forward. I mean, the best of all worlds would be for 
government never to get near any of this, and that will happen 
if mothers like Ms. Smit are feeling that they are better 
informed and, in some sense, protected by what the industry 
does. I thank you all.
    The hearing is adjourned.
    [Whereupon, at 1:29 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                  OPENING STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    You don't have to look very hard to find profanity, sex and 
violence in today's entertainment from movies and television to video 
games and music.
    Unfortunately, it seems that use of vulgar content is increasing 
every year.
    Parenting and grandparenting are wonderful roles and rewarding. 
Raising children has never been easy, but it seems tougher today 
because our popular culture is at war with parenthood.
    There was a time when we could comfortably and confidently let our 
child watch TV alone or flip through the radio stations. But anymore 
those precious and innocent years of youth are being lost.
    Movie ratings have been around for years. Yes, we have implemented 
a television rating system and warning labels on video games and music 
to warn of explicit sexual and violent content or profanity.
    These warnings and labels may or may not help. But the question to 
me is not always whether or not we are making sure we are properly 
posting ratings and warnings.
    The question should really be, why do we have to have these ratings 
and warnings?
    How did we get to this point in our history where we must always be 
on guard and covering the ears and eyes of our children?
    Before, we had to worry about our children going to a theater or 
maybe a concert to see or hear improper content. Now, we have to worry 
about the entertainment industry--especially Hollywood--directly 
pumping inappropriate content into our homes. The home was always 
thought of as the last safe haven. But not anymore.
    Yes, ultimately parents are responsible for what their children 
hear and see regardless of any type of ratings and warning system. 
Parents are the first line of defense in protecting children from lewd 
content.
    But, I think it important that we also all ask the question as to 
how we arrived at this point in time where in our entertainment the 
objectionable is the norm, the shocking is the model, and morality is 
mocked. We may not find these answers today, but these issues must be 
raised.
    Thank you, Mr. Chairman.
    [GRAPHIC] [TIFF OMITTED] T5480.001
    
    [GRAPHIC] [TIFF OMITTED] T5480.002
    
    [GRAPHIC] [TIFF OMITTED] T5480.003
    
    [GRAPHIC] [TIFF OMITTED] T5480.004
    
    [GRAPHIC] [TIFF OMITTED] T5480.005
    
    [GRAPHIC] [TIFF OMITTED] T5480.006
    
    [GRAPHIC] [TIFF OMITTED] T5480.007
    
    [GRAPHIC] [TIFF OMITTED] T5480.008
    
    [GRAPHIC] [TIFF OMITTED] T5480.009
    
    [GRAPHIC] [TIFF OMITTED] T5480.010
    
    [GRAPHIC] [TIFF OMITTED] T5480.011
    
    [GRAPHIC] [TIFF OMITTED] T5480.012
    
    [GRAPHIC] [TIFF OMITTED] T5480.013
    
    [GRAPHIC] [TIFF OMITTED] T5480.014
    
    [GRAPHIC] [TIFF OMITTED] T5480.015
    
    [GRAPHIC] [TIFF OMITTED] T5480.016
    
    [GRAPHIC] [TIFF OMITTED] T5480.017
    
    [GRAPHIC] [TIFF OMITTED] T5480.018
    
    [GRAPHIC] [TIFF OMITTED] T5480.019
    
    [GRAPHIC] [TIFF OMITTED] T5480.020
    
    [GRAPHIC] [TIFF OMITTED] T5480.021
    
    [GRAPHIC] [TIFF OMITTED] T5480.022
    
    [GRAPHIC] [TIFF OMITTED] T5480.023
    
    [GRAPHIC] [TIFF OMITTED] T5480.024
    
    [GRAPHIC] [TIFF OMITTED] T5480.025
    
    [GRAPHIC] [TIFF OMITTED] T5480.026
    
    [GRAPHIC] [TIFF OMITTED] T5480.027
    
    [GRAPHIC] [TIFF OMITTED] T5480.028
    
    [GRAPHIC] [TIFF OMITTED] T5480.029
    
    [GRAPHIC] [TIFF OMITTED] T5480.030
    
    [GRAPHIC] [TIFF OMITTED] T5480.031
    
    [GRAPHIC] [TIFF OMITTED] T5480.032
    
    [GRAPHIC] [TIFF OMITTED] T5480.033
    
    [GRAPHIC] [TIFF OMITTED] T5480.034
    
    [GRAPHIC] [TIFF OMITTED] T5480.035
    
    [GRAPHIC] [TIFF OMITTED] T5480.036
    
    [GRAPHIC] [TIFF OMITTED] T5480.037
    
    [GRAPHIC] [TIFF OMITTED] T5480.038
    
    [GRAPHIC] [TIFF OMITTED] T5480.039
    
    [GRAPHIC] [TIFF OMITTED] T5480.040
    
    [GRAPHIC] [TIFF OMITTED] T5480.041
    
    [GRAPHIC] [TIFF OMITTED] T5480.042
    
    [GRAPHIC] [TIFF OMITTED] T5480.043
    
    [GRAPHIC] [TIFF OMITTED] T5480.044
    
    [GRAPHIC] [TIFF OMITTED] T5480.045
    
    [GRAPHIC] [TIFF OMITTED] T5480.046
    
    [GRAPHIC] [TIFF OMITTED] T5480.047
    
    [GRAPHIC] [TIFF OMITTED] T5480.048
    
    [GRAPHIC] [TIFF OMITTED] T5480.049
    
    [GRAPHIC] [TIFF OMITTED] T5480.050
    
    [GRAPHIC] [TIFF OMITTED] T5480.051
    
    [GRAPHIC] [TIFF OMITTED] T5480.052
    
    [GRAPHIC] [TIFF OMITTED] T5480.053
    
    [GRAPHIC] [TIFF OMITTED] T5480.054
    
    [GRAPHIC] [TIFF OMITTED] T5480.055
    
    [GRAPHIC] [TIFF OMITTED] T5480.056
    
    [GRAPHIC] [TIFF OMITTED] T5480.057
    
    [GRAPHIC] [TIFF OMITTED] T5480.058
    
    [GRAPHIC] [TIFF OMITTED] T5480.059
    
    [GRAPHIC] [TIFF OMITTED] T5480.060
    
    [GRAPHIC] [TIFF OMITTED] T5480.061
    
    [GRAPHIC] [TIFF OMITTED] T5480.062
    
    [GRAPHIC] [TIFF OMITTED] T5480.063
    
    [GRAPHIC] [TIFF OMITTED] T5480.064
    
    [GRAPHIC] [TIFF OMITTED] T5480.065
    
    [GRAPHIC] [TIFF OMITTED] T5480.066
    
    [GRAPHIC] [TIFF OMITTED] T5480.067
    
    [GRAPHIC] [TIFF OMITTED] T5480.068
    
    [GRAPHIC] [TIFF OMITTED] T5480.069
    
    [GRAPHIC] [TIFF OMITTED] T5480.070
    
    [GRAPHIC] [TIFF OMITTED] T5480.071
    
    [GRAPHIC] [TIFF OMITTED] T5480.072
    
    [GRAPHIC] [TIFF OMITTED] T5480.073
    
    [GRAPHIC] [TIFF OMITTED] T5480.074
    
    [GRAPHIC] [TIFF OMITTED] T5480.075
    
    [GRAPHIC] [TIFF OMITTED] T5480.076
    
    [GRAPHIC] [TIFF OMITTED] T5480.077
    
    [GRAPHIC] [TIFF OMITTED] T5480.078
    
    [GRAPHIC] [TIFF OMITTED] T5480.079
    
    [GRAPHIC] [TIFF OMITTED] T5480.080
    
    [GRAPHIC] [TIFF OMITTED] T5480.081
    
    [GRAPHIC] [TIFF OMITTED] T5480.082
    
    [GRAPHIC] [TIFF OMITTED] T5480.083
    
    [GRAPHIC] [TIFF OMITTED] T5480.084
    
    [GRAPHIC] [TIFF OMITTED] T5480.085
    
    [GRAPHIC] [TIFF OMITTED] T5480.086
    
                                   - 

</pre></body></html>
